U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                                Review of the Drug
                                   Enforcement
                                 Administration’s
                                Disciplinary System
                                      Report Number
                                        I-2004-002




                                      January 2004
                             EXECUTIVE DIGEST


      The Office of the Inspector General (OIG) conducted this review to
assess the effectiveness of the Drug Enforcement Administration’s (DEA’s)
system for investigating allegations of employee misconduct and disciplining
employees who are found to have committed misconduct in a reasonable
and timely manner. Specifically, we reviewed whether allegations of
misconduct were properly reported to and investigated by DEA’s Office of
Professional Responsibility (OPR); disciplinary penalties were fair and
reasonable; the overall process was conducted in a timely manner; and the
system was fairly administered.

      The DEA established its current disciplinary system in December
1984, in response to a Title VII class action lawsuit filed by African-
American special agents. In that lawsuit, the United States District Court
(Court) for the District of Columbia found that the DEA’s disciplinary
practices (among other personnel practices) were discriminatory, and
ordered the DEA to implement a non-discriminatory disciplinary system.
The resulting three-tiered, centralized system consists of the OPR, which
investigates allegations of employee misconduct; the Board of Professional
Conduct (Board), which determines whether misconduct occurred and
proposes disciplinary action; and the Deciding Officials, who make the final
disciplinary decision.

RESULTS IN BRIEF

      We found that the DEA’s system for investigating employee
misconduct generally functioned well. The investigations of alleged
misconduct in general appear to be thorough and well documented, and
provide a sound basis for making disciplinary decisions. We also concluded
that the DEA usually imposed reasonable and relatively consistent
discipline for confirmed misconduct.

       However, we found problems in various cases that revealed
weaknesses in DEA’s disciplinary system. Weaknesses included inadequate
guidance and the possible failure of the Deciding Officials to properly
consider the Board’s mitigation before applying additional mitigating factors
which resulted in penalties that appear to be too lenient; the improper
consideration of personal experience and opinion, and external factors by
Board members and a Deciding Official when making disciplinary decisions;
a failure to adequately document disciplinary decisions by the Board and
Deciding Officials; the failure of DEA management to monitor the timeliness

U.S. Department of Justice                                               i
Office of the Inspector General
Evaluation and Inspections Division
of the disciplinary process; and a lack of management oversight over the
Deciding Officials.

      Weak Guidance and Mitigation by Both the Board and the
Deciding Officials Leads to Lenient Penalties. During our review, we
found that the penalties imposed by the DEA for confirmed misconduct
sometimes appeared overly lenient. In 9 of the 70 cases that we reviewed,
involving 13 subjects, we concluded that the facts established by the OPR
investigation or comments made by Board members in the supporting
documentation justified a stronger penalty than was imposed by the
Deciding Official.

       We identified several factors that appeared to encourage the lenient
penalties. The DEA’s Schedule of Disciplinary Offenses and Penalties
(Schedule) was last updated in 1992 and does not communicate DEA
management’s priorities. The defined offenses are generic and not DEA-
specific, and the penalties – usually ranging from a Letter of Reprimand to
Removal for each offense – are too broad to serve as effective guidance for
the Board and Deciding Officials. Another factor that contributed to lenient
penalties is that Deciding Official may mitigate the penalty without properly
taking into consideration that mitigating factors that the Board already
applied. This can result in penalties that may be reduced below the level
that is appropriate for the offense.

      Board Members and a Deciding Official Sometimes Improperly
Consider Personal Experiences or Opinions, or External Factors When
Making Disciplinary Decisions. In several cases we reviewed, we found
comments that indicated Board members sometimes used personal
experiences or opinions to influence their determinations. Also, prior to
making a decision, one Deciding Official would sometimes contact
employees’ supervisors or others to obtain information about the employees.
This was not consistent with DEA regulations that direct Deciding Officials
to consider only the OPR investigative case file, the Board’s proposal, and
any written or oral statement by the employee.

       The Board and Deciding Officials Do Not Adequately Document
All Disciplinary Decisions. We could not determine the full extent to
which imposed penalties may be too lenient and external factors were
improperly considered because the documentation in many of the files was
insufficient. In some cases, the Board members did not document the
rationale for their disciplinary proposals. In other cases where individual
Board members disagreed, the Board Chairman did not document his
rationale for the final proposal. Also, in some cases the advice provided to


U.S. Department of Justice                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
the Board or the Deciding Officials by the Office of Chief Counsel was not
documented. We also found that the Deciding Officials did not sufficiently
document their reasoning when they deviated from the Board’s proposed
charges and penalties. Further, adverse action files frequently lacked
documentation of the written or oral statements made by the employees in
response to disciplinary proposals. In several cases, the Deciding Officials
mitigated penalties based on these statements, but without documentation
we were unable to determine whether the mitigations were appropriate.

       DEA Management Failed to Monitor and Ensure the Timeliness of
the Disciplinary Process. We found that during fiscal year (FY) 2001 and
FY 2002, the DEA experienced excessive delays in processing disciplinary
cases. During this period the delays occurred primarily at the Board, with
backlogs of 60 to 110 cases from September 1999 through January 2002,
resulting in processing delays of 90 to 120 days. These delays occurred
because of staffing shortages at the Board and a requirement that the Board
Chairman review every case file and sign all proposal letters for disciplinary
action. We also found another source of delay – the requirement that the
Board review field reports pertaining to routine official government vehicle
(OGV) accidents and losses of government property.

      According to the Board Chairman, during 2002 the DEA addressed
the backlog by adding staff to the Board and permitting the Board
Chairman to delegate review authority to another Board member for those
cases where the proposed penalty was less than a 15-day suspension.
Nonetheless, the backlog persisted for more than 29 months before the DEA
took corrective action.

       Moreover, we were unable to determine the current status of the
DEA’s disciplinary caseload because the DEA has no overall mechanism in
place to track disciplinary cases as they progress through the system. Each
of the three entities in the system maintains its own database. While OPR
can use its database to track the timeliness of its investigations, neither the
Board members nor the Deciding Officials can use their databases for that
purpose. Instead, their databases are primarily repositories of prior
proposals and decisions, which are used as a reference to ensure
consistency when determining disciplinary penalties. In 2002 the DEA
began developing a centralized disciplinary database, which should enable
the DEA to better monitor timeliness.

      Lack of Management Oversight over the Deciding Officials. We
found that although the decisions of both OPR and the Board undergo
review, there is no commensurate accountability for the Deciding Officials.


U.S. Department of Justice                                                iii
Office of the Inspector General
Evaluation and Inspections Division
Specifically, the DEA’s disciplinary system lacks any mechanism to review
final decisions when there is a significant discrepancy between the findings
of the investigation, the Board’s proposed charges and penalties, and the
Deciding Official’s final determination.

      Survey Finds Some DEA Employees Perceive Disparate
Treatment. In a survey of 50 DEA employees, 70 percent (35 employees)
stated that they believed the DEA discipline system treated employees
equitably. The remaining 30 percent stated either that DEA special agents
or higher-graded employees received more favorable treatment. A complete
evaluation of disciplinary disparity would require comparison of similar
offenses and a methodology to account for inherent differences in the
number and types of offenses that different groups may commit.1 This kind
of comprehensive analysis was beyond the scope of this review. The data
that we reviewed for indications of disparity was mixed and inconclusive as
to whether a dual standard of discipline exists.

       For example, we found that allegations referred to OPR appeared to be
investigated thoroughly and that, in most cases, the discipline administered
for confirmed misconduct was reasonable. We also found that DEA special
agents are investigated and disciplined at a higher rate than they are
represented in the DEA workforce. Our examination of discipline cases
involving SES employees found that the penalties appeared to be
appropriate. We also found that employees in all grade levels were equally
likely to be disciplined. All of the above facts tend to indicate that special
agents and higher graded employees are not treated more favorably than
other DEA employees. However, we also found that of the 13 individuals
who we found received unreasonably lenient penalties, 12 were special
agents. We also found that investigations of lower-graded employees
resulted in termination more often than for other employees. Because the
data that was available was mixed, we cannot conclusively prove or disprove
the validity of some DEA employees’ perception that special agents or
higher-graded employees are treated more leniently.

      Weaknesses Leave DEA Discipline System Vulnerable to Abuse.
The problems we found with the lenient penalties, improper consideration of


        1 For example, employees who do not carry guns or arrest people are unlikely to, or

cannot, commit the types of serious offenses that may result from those activities.
Therefore, an evaluation of disciplinary actions across groups cannot simply compare
penalties imposed to assess consistency. Instead, to properly evaluate whether different
groups are treated consistently, each case must be evaluated using a methodology that can
account for a variety of relevant factors. Such an analysis was beyond the scope of this
review.

U.S. Department of Justice                                                           iv
Office of the Inspector General
Evaluation and Inspections Division
external factors, incomplete documentation, and lack of management
oversight of the Deciding Officials leave the DEA discipline system at risk of
being abused. That risk was borne out in a case that the OIG investigated
and referred to the DEA for appropriate discipline. In that case, an off-duty
DEA supervisory special agent detained his stepdaughter’s 17-year-old
boyfriend at gunpoint after they returned from a late-night rendezvous. The
DEA agent also failed to inform the police when they arrived that he had
detained the boy at gunpoint. The Board concluded that the agent had
committed misconduct and proposed that he be suspended for seven days.
However, the Deciding Official dismissed the charges, summarily declaring
that the agent had not committed misconduct without any explanation or
rationale for his decision.

RECOMMENDATIONS

      We make eight recommendations to help the DEA ensure that its
disciplinary decisions are reasonable, free of inappropriate external
influences, well-documented, and timely. These recommendations include
better guidance for the Board and Deciding Officials in making their
disciplinary determinations, establishing standards to improve the timely
processing of disciplinary cases, and requiring more effective DEA
management of the overall disciplinary process. We recommend that the
DEA:

       1. Provide better guidance to the Board and Deciding Officials on the
          factors that may be considered in making disciplinary
          determinations by: a) updating the Schedule of Disciplinary
          Offenses and Penalties; b) updating written procedures to guide the
          operations of the Board and Deciding Officials; and c) instructing
          the Deciding Officials to limit their disciplinary considerations to
          the information contained in official DEA files and information
          provided by employees or their authorized representative.

       2. Ensure that the DEA document the Douglas factors considered in
          making its disciplinary decisions.

       3. Require that documentation maintained by the Board and Deciding
          Officials regarding each disciplinary case include: a) the opinions
          of each Board member assigned to review a case and the rationale
          for the Chairman’s proposal in those instances when the individual
          Board members disagree; b) any advice from outside sources, such
          as the Office of Chief Counsel; and c) all oral and written
          statements made by employees to Deciding Officials.


U.S. Department of Justice                                                v
Office of the Inspector General
Evaluation and Inspections Division
       4. Require that when the final disciplinary decisions differ from the
          proposed charges and penalties, the final decision letter contain a
          detailed explanation of the reasons for the difference.

       5. Require that the Board and the Deciding Officials establish
          performance measures for timeliness, and record the amount of
          time it takes to process each case.

       6. Designate a single office to monitor the three-tiered system and
          prepare reports describing disciplinary activities, including, at a
          minimum: a) the processing timeframes for OPR, the Board, and
          the Deciding Officials; b) statistics on offenses committed and
          disciplinary actions taken; c) trend analyses showing increases or
          decreases in specific offenses committed; and d) a description of
          disciplinary decisions where the final charges or penalties varied
          significantly from the Board proposal.

       7. Require that the DEA Inspection Division periodically review a
          sample of closed disciplinary case files to assess whether the basis
          for the disciplinary decisions was adequately documented.

       8. Delegate responsibility for reviewing instances of routine OGV
          accident and losses of government property cases that do not
          involve misconduct issues to the appropriate special agents in
          charge and office heads.




U.S. Department of Justice                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
                                     TABLE OF CONTENTS


INTRODUCTION ...............................................................................1

    Purpose ...........................................................................................1

    Background.......................................................................................1

    Scope and Methodology ...................................................................11


RESULTS OF THE REVIEW.............................................................14

    Reasonableness of Disciplinary Decisions ........................................14
      Recommendations.......................................................................29

    Timeliness of Processing Disciplinary Cases.....................................30
       Recommendations.......................................................................36

    Consistency of the Disciplinary System............................................37

    DEA Management of the Disciplinary System...................................47
      Recommendations.......................................................................52

CONCLUSIONS ...............................................................................53

APPENDIX I: DEMOGRAPHICS OF EMPLOYEES IN TELEPHONE
SURVEY.........................................................................................55

APPENDIX II: THE DRUG ENFORCEMENT ADMINISTRATION’S
RESPONSE.....................................................................................56

APPENDIX III: THE OIG’S ANALYSIS OF THE DRUG
ENFORCEMENT ADMINISTRATION’S RESPONSE............................60




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  INTRODUCTION


Purpose

       Title 5, United States Code, Chapter 75 establishes the legal
framework for federal agencies to address employee misconduct through
adverse actions, such as suspensions, demotions, and removals. It states
that employees may be disciplined “for such cause as will promote the
efficiency of the service.” In other words, an agency may take disciplinary
action when an employee’s misconduct or unacceptable performance
interferes with the agency’s ability to carry out its mission. In addition to
the adverse actions delineated in Chapter 75, agencies also impose other
discipline, such as oral and written admonishments.

      The Office of the Inspector General (OIG) reviewed the DEA’s
disciplinary system to assess how the DEA investigates allegations of
employee misconduct, and how it imposes and enforces discipline for
substantiated allegations. Specifically, we reviewed whether allegations of
misconduct were properly reported and investigated; disciplinary penalties
were fair and reasonable; the overall process was conducted in a timely
manner; and the system was fairly administered.

Background
      To maintain an orderly, productive work environment, each agency
should implement a disciplinary system for employees that communicates
the behaviors that are unacceptable, provides penalties to deter employees
from exhibiting the unacceptable behaviors, and consistently penalizes
inappropriate behavior. In implementing a disciplinary system, agencies
should identify standards of conduct that define the actions that interfere
with the performance of the agency’s mission. Agencies also may issue a
schedule of penalties that are imposed upon employees who violate the
standards of conduct. The DEA’s Standard Schedule of Discipline Offenses
and Penalties was last revised in 1992.

      Federal agencies have leeway in determining disciplinary penalties;
the only requirement is that the penalty be reasonable. To help determine
reasonability, in a 1981 decision the Merit Systems Protection Board (MSPB)




U.S. Department of Justice                                                 1
Office of the Inspector General
Evaluation and Inspections Division
established 12 factors, known as “Douglas factors,” for agency officials to
consider when determining disciplinary actions.2

       The Douglas factors are used to either mitigate (reduce) or aggravate
(increase) a proposed penalty when an employee commits an offense. For
example, a long-term employee with no prior disciplinary history and an
excellent performance record may receive a reduced penalty compared to an
employee committing the same offense who has been disciplined previously
and has a poor performance record.

       Employees who are suspended for more than 14 days, demoted, or
removed have the right to appeal to the MSPB.3 In the Douglas decision,
the MSPB established its authority to mitigate agency-imposed penalties
that it determines are “clearly excessive, disproportionate to the sustained
charges, or arbitrary, capricious, or unreasonable.” The MSPB also stated
that it will mitigate agency-imposed penalties if the agency fails to weigh the
relevant factors or clearly exceeds the limits of reasonableness.

History of the DEA Disciplinary System

      The DEA’s disciplinary system has changed over the years from a
decentralized to a centralized system. When the DEA was created in 1973,
regional field directors and headquarters office heads made all disciplinary
proposals and decisions. This decentralized system resulted in complaints
from DEA employees of inequitable treatment because they believed field
managers in different regions were not imposing consistent penalties for
similar offenses. In February 1977, African-American special agents filed a



        2 The Douglas factors were established as a result of the case of Curtis Douglas v.

Veterans Administration, 5 MSPR 280, 5 MSPB 313 (1981). The Douglas factors are:
(1) the nature and seriousness of the offense, (2) the employee’s position, (3) the employee’s
prior disciplinary history, (4) the employee’s length of service and prior work record, (5) the
effect of the offense on the employee’s ability to perform the job, (6) the consistency of the
penalty with those imposed upon other employees committing the same or similar offenses,
(7) the consistency of the penalty with the agency’s penalty guidelines, (8) the notoriety of
the offense, (9) the clarity of the employer’s rules, (10) the potential of the employee for
rehabilitation, (11) mitigating circumstances, and (12) The adequacy and effectiveness of
alternative sanctions. The MSPB oversees the federal government’s merit-based system of
employment and adjudicates employee appeals of personnel actions, such as removals,
suspensions, or demotions.

      3 Employees have the right to appeal lesser penalties through their agency’s

administrative grievance procedures.



U.S. Department of Justice                                                                2
Office of the Inspector General
Evaluation and Inspections Division
Title VII class action lawsuit against the DEA alleging racial discrimination
in personnel and disciplinary practices.4

       In response, in 1980 the DEA created the Board of Professional
Conduct (Board), consisting of two Board members and one Board
Chairperson, which proposed penalties for cases involving integrity issues or
official government vehicle (OGV) misuse.5 Despite the creation of the
Board, the disciplinary system remained largely decentralized because
special agents in charge (SAC) and office heads still rendered the final
disciplinary decisions. In addition, SACs and office heads were the
proposing officials and the deciding officials for disciplinary cases that did
not involve integrity issues or OGV misuse.

      As a result of the Title VII lawsuit, on February 6, 1981, the United
States District Court for the District of Columbia (Court) ordered the DEA to
conduct validity studies for implementing a non-discriminatory personnel
system, including a disciplinary system. Another Court order, issued on
February 17, 1982, required the DEA, upon completion of the validity
studies, to “proceed to develop and implement new, non-discriminatory
employment systems with respect to…discipline.”

        In October 1982, the DEA centralized its disciplinary system by
requiring that headquarters officials make all disciplinary decisions for
proposed penalties in excess of a 14-day suspension. In December 1984,
the DEA required that the Deciding Officials at headquarters make decisions
for all proposed disciplinary actions.

       The DEA subsequently hired a contractor to review the revised
disciplinary system and “determine whether punishment was being
administered in a fair, equitable and non-discriminatory manner.” While
the study primarily reviewed factors related to race and gender, it also
reviewed other factors such as geographic location of the employee, the size
of the office, and the employee’s grade. The study, issued in April 1987,
concluded:


       4 Segar v. Civiletti, 508 F. Supp. 690 (D.D.C. 1981), aff'd in relevant part subnom.
Segar v. Smith, 738 F. 2d 1249 (D.C. Cir. 1984), cert. denied subnom. Meese v. Segar, 471
U.S. 1115 (1985).

        5 Integrity issues involve violations of the DEA’s Standards of Conduct. Examples

include perjury or false statements concerning official matters, unauthorized disclosures of
sensitive information, narcotics use, improper use of official position, evidence tampering,
and improper associations.



U.S. Department of Justice                                                             3
Office of the Inspector General
Evaluation and Inspections Division
       In general, the centralized conduct and discipline system in
       use appears to be achieving its goals of providing a fair,
       equitable, and non-discriminatory review of serious conduct
       and integrity violations by DEA Special Agents. In addition,
       the system seems to result in fair and non-discriminatory
       disciplinary actions.6

       In September 1988, the Court ruled that the DEA’s disciplinary
system met its requirements. Since then, there have been only minor
modifications to the disciplinary system, such as the establishment of two
full-time Deciding Official positions.

      On July 11, 2001, the Attorney General signed an order giving the
OIG jurisdiction to investigate allegations of misconduct against DEA
employees. Accordingly, an OIG investigator reviews all allegations of DEA
misconduct to determine if the OIG will conduct the investigation. The OIG
normally investigates cases that involve criminal matters, non-criminal
allegations against senior DEA employees, or cases where there is a
particular reason for the OIG to investigate, such as if the DEA would have
a conflict of interest. If the OIG declines to investigate, DEA’s Office of
Professional Responsibility (OPR) conducts the investigation.

Overview of the DEA’s Disciplinary System

      The entities that implement the DEA’s disciplinary system primarily
include OPR, the Board, and the Deciding Officials. OPR is part of the
Inspection Division; the Board and the Deciding Officials are part of the
Human Resources Division. OPR investigates the misconduct. The Board
determines whether the misconduct occurred, based on the OPR
investigative case file, and, if so, proposes a penalty. The Deciding Officials
review the investigative case file, the Board’s proposal, and any written
statement submitted by the employee; consider any oral testimony provided
by the employee; and make the final disciplinary determination.7 As shown


       6A Study of the Drug Enforcement Administration’s Current Conduct and Disciplinary
System, Advanced Research Resources Organization, Arthur L. Korotkin, F. Mark
Schemmer, and Cheryl D. Bruff (April 1987).

       7 All DEA misconduct cases, except for those involving SES executives and

attorneys, undergo this process. SES misconduct is investigated by the DEA OPR, and SES
executives within the employee’s chain of command make disciplinary proposals and
decisions. DEA attorney misconduct is investigated either by the OIG, DOJ OPR, or DEA
OPR. Penalties for attorneys of 14-days suspension or less are handled through the normal
DEA disciplinary channels. For more serious penalties, the DEA’s Deputy Administrator is

U.S. Department of Justice                                                          4
Office of the Inspector General
Evaluation and Inspections Division
in the chart below, each of the three entities operates independently, with
no single individual or entity in charge of the overall disciplinary system.

                                                  Figure 1:
                          Organizational Structure of the DEA Disciplinary Process

                                                      Administrator/
                                                   Deputy Administrator

                                              Office of
                                            Chief Counsel



  Intelligence Division   Human Resources     Operations          Financial          Inspection               Operational
                              Division         Division          Management           Division                 Support
                                                                   Division                                    Division


       DECIDING              BOARD OF        Employee                       OFFICE OF             Office of
       OFFICIALS           PROFESSIONAL      Relations                    PROFESSIONAL             Security
                             CONDUCT           Unit                       RESPONSIBILITY          Programs



      The DEA’s Office of Chief Counsel and the Employee Relations Unit,
in the Human Resources Division, also have roles in the disciplinary
system. The Office of Chief Counsel reviews all disciplinary decisions that
can be appealed to the MSPB, (i.e., those penalties in excess of a 14-day
suspension); defends agency decisions before the MSPB; and provides legal
advice, upon request, to OPR, the Board, and the Deciding Officials.

      The Employee Relations Unit maintains the adverse action files, which
contain documentation related to individual disciplinary decisions, and
reviews all proposal and decision letters to ensure technical and procedural
accuracy. The Employee Relations Unit also provides technical advice to the
Board, the Deciding Officials, and other DEA officials regarding disciplinary
actions.

       The Office of Security Programs in the Inspection Division also has a
role in the disciplinary system. OPR investigators provide the Office of
Security Programs with information regarding investigations in which
security violations occurred, or when they believe a subject’s security
clearance may need to be revoked or suspended. Conversely, the Office of
Security Programs notifies OPR of security issues that are pertinent to an
investigation.




the proposing official and the DOJ’s Office of Attorney Personnel Management is the
Deciding Official.



U.S. Department of Justice                                                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
      The operations of the three primary entities involved in the
disciplinary system – OPR, the Board, and the Deciding Officials – are
described in detail below.

       The Office of Professional Responsibility

       OPR, managed by a deputy chief inspector and two associate deputy
chief inspectors, investigates allegations of employee misconduct. As of
September 16, 2003, OPR’s staff included 6 senior inspectors and 28
inspectors, all at the GS-14 level or above, assigned to 6 investigative teams
(2 in Washington, and 1 each in Miami, Newark, Los Angeles, and Dallas).
Senior inspectors and inspectors are assigned to OPR on 2- to 3-year
rotations. After completing their rotation in OPR, the inspectors typically fill
management positions in the field. The inspectors generally are required to
have ten years of investigative experience as DEA special agents, including
supervisory field experience. The average DEA experience of the 28 OPR
inspectors on staff as of September 16, 2003, was 18 years, ranging from 14
years to 23 years. The DEA experience of the six senior inspectors ranged
from 16 years to 22 years.

      OPR headquarters staff also includes two intelligence analysts, an
Integrity Analysis and Support Staff, and an Administrative Support Unit.
The intelligence analysts assist OPR inspectors by researching law
enforcement databases, such as the National Crime Information Center and
the Narcotics and Dangerous Drugs Information System, checking financial
records, analyzing documentary evidence, and accompanying OPR
inspectors to subject or witness interviews. The Analysis and Support Staff
maintains OPR’s statistical database and provides statistical analyses at the
request of OPR management. The Administrative Support Unit provides
general administrative support to OPR management.




U.S. Department of Justice                                                 6
Office of the Inspector General
Evaluation and Inspections Division
                                       Figure 2:
                    The DEA's Office of Professional Responsibility
                                                     Deputy
                                                 Chief Inspector

                                        Associate             Associate
                                         Deputy                Deputy
                                          Chief                 Chief
                                        Inspector             Inspector

                                     Integrity Analysis     Administrative
                                        and Support           Support



                                        Intelligence
                                          Analysts




    Investigative    Investigative     Investigative        Investigative    Investigative   Investigative
       Team A           Team B            Team C               Team D           Team E          Team F
   Washington, DC   Washington, DC    Los Angeles, CA         Miami, FL       Newark, NJ       Dallas, TX




      The DEA’s Standards of Conduct require DEA employees to refer to
OPR headquarters all cases that involve violations of the standards of
conduct, criminal or civil violations of laws and departmental codes, or
where public notoriety reaches a level detrimental to the DEA or the
Department of Justice (DOJ). OPR also receives allegations from external
sources, such as law enforcement officials, confidential informants,
cooperating witnesses, governmental agencies, and the public. During fiscal
years (FY) 2001 and FY 2002, OPR received 695 allegations from internal
sources and 134 allegations from external sources.

       As described previously, since July 11, 2001, the OIG has reviewed all
allegations received by the DEA OPR. For those cases that the OIG declines
to investigate, one of two OPR Associate Deputy Chief Inspectors determines
if an OPR inspector will conduct the investigation, or if OPR will delegate the
investigation to a SAC or headquarters office head. Less serious
administrative cases are generally delegated for investigation.8 An OPR
inspector monitors all delegated cases for quality and timeliness. During FY
2001 and FY 2002, OPR investigated 696 cases and delegated 122 cases to
SACs or office heads.9


        8 Administrative issues include issues that do not have an integrity or criminal

component. Examples include government travel card delinquencies, insubordination, and
job performance.

       9 Differences in totals between number of allegations received and cases investigated

are due to timing issues, e.g., allegations received at the end of FY 2002 may not have been
assigned to be investigated until the beginning of FY 2003.



U.S. Department of Justice                                                                                   7
Office of the Inspector General
Evaluation and Inspections Division
       During an investigation, the OPR inspector typically interviews the
subject, complainant, witnesses, and other pertinent individuals, and
gathers relevant documents and other evidence. When the investigation is
complete, the inspector prepares an investigative report, without
recommendations or conclusions, which is included in the investigative case
file. According to the OPR Inspector’s Handbook, which contains the
procedures that all OPR inspectors must follow during an investigation, the
investigative report “…must be factual and completely unbiased. The report
should not contain any conclusions based on opinions. It should be a
factual representation of events/actions.” Both the senior inspector and
Associate Deputy Chief Inspector review and approve the investigative case
file before sending it to the Board.

       The Board of Professional Conduct

       The Board reviews OPR investigative case files to determine whether
the alleged misconduct occurred, and, if so, proposes a penalty. Currently,
the Board, which reports to the Director of the Human Resources Division,
is comprised of seven full-time GS-15 employees – a Chairman and six
Board members. The occupational series of the Board members can vary.
The Board currently consists of five special agents, one intelligence analyst,
and one diversion investigator. There is no set term for assignments to the
Board – members may be replaced at the DEA Deputy Administrator’s
direction, or at their own request. An analyst, who researches databases
and performs other analytical functions, and two employee relations
specialists who write proposal letters to the employees, assist the Board.

      The Board does maintain a procedural handbook, but this has not
been updated since June 1995. Misconduct cases generally are assigned to
the Board members based on their current caseload. From one to three
Board members review each case, depending on the complexity and
seriousness of the issues. If the Board concludes that the OPR case file is
incomplete, it returns the case to OPR for further investigation. For
example, the Board may request that OPR re-interview witnesses, interview
additional witnesses, or obtain additional documentation or other physical
evidence.

      After the Board completes its review of the case file, including any
additional information gathered by OPR, each Board member assigned to
the case separately prepares a written summary of his or her findings,
including a determination as to whether misconduct occurred, the offense
committed, and a recommended penalty. In selecting the recommended
penalty, the Board members consider certain Douglas factors, particularly


U.S. Department of Justice                                                8
Office of the Inspector General
Evaluation and Inspections Division
the employee’s length of service, prior work record, and prior disciplinary
history.10 After all the summaries are completed, the Board members meet
to discuss their conclusions and try to reach a consensus on the offense
and penalty. If they cannot reach a consensus, the Board Chairman
determines the proposed offense and penalty.

     Once the Board makes a determination, it may recommend that the
employee be:

       •    given a Letter of Clearance,11

       •    given a Letter of Caution,

       •    given a Letter of Reprimand,

       •    suspended without pay,

       •    demoted, or

       •    removed.

       If the Board proposes formal discipline, it sends a “proposal letter” to
inform the employee of its findings. 12 The letter lists the offense and the
proposed penalty, and also includes a statement informing the employee of
his or her right to review the OPR investigative case file, and to provide both
a written and oral statement to the Deciding Official. The Board also sends
copies of all proposal letters and the OPR investigative file to the Deciding
Officials. In FY 2001 and FY 2002, the Board issued 691 proposal letters,
including 231 Letters of Clearance, 169 Letters of Caution, and
291 formal disciplinary actions, and recommended that 174 investigations
be administratively closed.

       10  The Board does not consider all the Douglas factors. Only the Deciding Official is
privy to the employee’s written or oral statement, which generally contains mitigating
factors. In addition, although the proposal letters we reviewed indicated that other Douglas
factors were considered, we found no documentation that all the Douglas factors were
considered.

       11 A Letter of Clearance is issued when it is determined that the employee did not

commit misconduct. All other actions reflect that misconduct did occur; the severity of the
penalty varies based on the individual factors of the case.

        12 Letters of Reprimand, suspensions, demotions, and removals constitute formal

disciplinary action. A Letter of Caution is not formal disciplinary action and therefore does
not become part of the employee’s personnel record.



U.S. Department of Justice                                                              9
Office of the Inspector General
Evaluation and Inspections Division
      In addition to proposing discipline in misconduct cases, the Board
imposes final discipline in cases involving OGV accidents and lost or stolen
government property. For these cases, the field (i.e., personnel assigned by
the SAC or office head to conduct the investigation) conducts the
investigations and sends the case directly to the Board. Typically, one
Board member reviews each case. In FY 2001 and FY 2002, the Board
issued final decisions for 1,134 OGV accident cases, and 564 lost or stolen
property cases.

       The Deciding Officials

      The Deciding Officials review the OPR investigative case files, the
Board’s proposal letters, any oral or written statements provided by the
employee, and the employee’s Official Personnel Folder (OPF). They
determine whether the allegations of misconduct are sustained and, if so,
decide penalties, taking into account both mitigating and aggravating
Douglas factors.

       There are two full-time Deciding Officials. Each is a GS-15 DEA
employee. During our review, one Deciding Official was a special agent and
one was a non-agent, but this make-up may vary. Similar to the Board, the
Deciding Officials serve an indeterminate term, and may be replaced at their
request or at the DEA Deputy Administrator’s direction. Generally, the
Career Board appoints the Deciding Officials. However, Office Heads and
SACs have the authority to reassign individuals in core GS-14 and GS-15
positions within their components. The latest Deciding Official was
appointed by the Director of Human Resources, in consultation with the
Career Board.

      Cases are assigned to the Deciding Officials based on their current
caseloads. When deciding a case, DEA’s personnel manual states that the
Deciding Official “should consider only the reasons specified in the notice
and the material in the file, and shall consider any answer of the employee
and his or her representative.” Similar to the Board, if the Deciding Official
believes that he needs more information before making a decision, he can
request OPR to investigate further. The Deciding Officials maintain a
manual, however this manual has not been updated since early 1998.

     After the Deciding Official reviews the investigative case file, the
Board’s proposal letter, written or oral statements presented by the
employee, and the employee’s OPF, the Deciding Official:



U.S. Department of Justice                                                  10
Office of the Inspector General
Evaluation and Inspections Division
       •   sustains the charge and penalty,

       •   sustains the charge, but reduces the penalty,

       •   dismisses the charge, or

       •   re-proposes the case with new charges or increased penalties.13

       After the Deciding Official makes a decision, he sends a letter to the
employee informing him or her of the decision, the penalty, and the date the
penalty will be imposed. The penalty is imposed even if the employee
appeals or files a grievance. However, should the employee win the appeal
or grievance, the agency must make restitution to the employee. In FY 2001
and FY 2002, the Deciding Officials made 602 decisions in OPR misconduct
cases.

       In addition to making final disciplinary decisions for OPR cases
proposed by the Board of Professional Conduct, the Deciding Officials also
make disciplinary decisions in certain misconduct and performance cases
proposed by SACs, Laboratory Directors, and office heads, such as
unprofessional or disrespectful conduct, inattention to duty, misuse of a
government credit card, and unauthorized absences. In these cases, field
personnel conduct the investigation, and the SAC, Laboratory Director, or
office head proposes the discipline and forwards the case to the Deciding
Officials.14 In FY 2001 and FY 2002, the Deciding Officials made 43
decisions in personnel cases.

Scope and Methodology of OIG Review

       We conducted the fieldwork from October 2002 through July 2003.
We interviewed DEA headquarters officials from the Office of the Chief
Inspector, OPR, the Office of Human Resources, the Office of Chief Counsel,
and the Office of Security Programs. We interviewed the DEA Chief of
Operations, each member of DEA’s Board, and both of DEA’s Deciding
Officials. We interviewed all OPR inspectors located at the OPR’s six field

       13 In cases where the Deciding Official proposes new charges or increased penalties,

the second Deciding Official becomes the official that makes the final disciplinary decision.

       14All SAC, Laboratory Director, and office head proposals recommending clearances,

administrative closures, Letters of Caution, or disciplinary action are forwarded to the
Deciding Officials. SACs, Laboratory Directors, and office heads can issue oral
admonishments.



U.S. Department of Justice                                                             11
Office of the Inspector General
Evaluation and Inspections Division
offices. We also interviewed officials from the OIG Investigations Division
and from the DOJ OPR.

      We analyzed FY 2001 and FY 2002 workload statistics for OPR, the
Board, and the Deciding Officials. OPR provided statistics on the number of
misconduct cases by employee grade level, position, work location, and by
type of violation and resulting penalty. The Board provided the number of
closed OGV accident and loss or theft of property cases for FY 2001 and
FY 2002. The Deciding Officials provided the number of closed personnel
cases for FY 2001 and FY 2002.

       We also reviewed a sample of 100 closed disciplinary cases from
FY 2001 and FY 2002 to assess whether the disciplinary penalties appeared
to be fair and reasonable, and whether the overall process was conducted in
a timely manner.15 We examined the OPR investigative case files as well as
documents maintained by the Board and Deciding Officials, and the official
personnel file of the subject.

      To assist us in assessing the quality of the OPR’s investigations, an
OIG investigator reviewed a sub-sample of 18 of the more complicated OPR
cases to determine if OPR investigators:

       •    followed appropriate leads and allegations,

       •    interviewed subjects and documented the interviews,

       •    had DEA employees who were interviewed sign the appropriate
            warnings and assurance forms, and

       •    included all pertinent information in the final investigative report.

      To assess the disciplinary actions taken against Senior Executive
Service (SES) employees, we separately obtained and reviewed the
investigative case summaries of all OPR investigations of SES employees for
which a disciplinary decision was made in FY 2001 and FY 2002.16

       15 The sample included 70 misconduct cases that were investigated by OPR and 30
other types of disciplinary cases (10 accidents involving government vehicles, 10 losses of
government property, and 10 personnel-related incidents) for which disciplinary actions
were determined by the Board or the Deciding Officials.

       16 These did not include those cases that were administratively closed, which are

closed due to insufficient evidence or where the subject resigned or retired prior to the
rendering of the disciplinary decision.



U.S. Department of Justice                                                            12
Office of the Inspector General
Evaluation and Inspections Division
      In addition, we telephonically contacted a random sample of 50 DEA
employees to obtain their perceptions and feedback on the disciplinary
system relating to reporting misconduct, timeliness, the thoroughness and
professionalism of OPR’s investigations, and the fairness and consistency of
penalties imposed by the Deciding Officials.17




       17   See Appendix I for the sample demographics.



U.S. Department of Justice                                             13
Office of the Inspector General
Evaluation and Inspections Division
                               RESULTS OF THE REVIEW


Reasonableness of Disciplinary Decisions

       While we found that OPR investigations of employee
       misconduct were thorough and well documented, the
       disciplinary decisions based on these investigations were
       not always reasonable. The DEA sometimes levied
       lenient penalties due to a broad and generic schedule of
       penalties, a process that allows mitigation of penalties
       by both the Board and the Deciding Officials, and the
       failure by senior DEA management to adjust penalties for
       frequent offenses. We also found that Board Members
       and a Deciding Official inappropriately considered
       outside    opinions   or   information    when    making
       disciplinary decisions. Finally, for some cases we were
       unable to assess the reasonability of imposed penalties
       because the Board and Deciding Officials did not
       document the reasons for their disciplinary decisions.

       OPR Investigations are Thorough and Well Documented. The first
critical element of the disciplinary system is the investigation of alleged
employee misconduct. Based on the OPR investigations, the Board and
Deciding Officials determine whether the employee committed misconduct
and should be disciplined. We found that OPR’s investigations of employee
misconduct provided a solid foundation for the disciplinary process. Our
review of 70 OPR case files found that the OPR’s investigations of alleged
misconduct were thorough and well documented. The OPR generally
requires its inspectors to tape record their interviews and to include a
typewritten, verbatim transcript of the interview in the investigative case file.
The case files also contained other evidentiary material, such as telephone
call logs and database search results. Due to the quality of the
documentation included in the case file, a reviewer could easily follow the
progress of the investigation from the receipt of the allegation to the
conclusion of the investigation.

       In addition to our general review of 70 OPR investigations, an OIG
criminal investigator performed a detailed assessment of the investigation
conducted in 18 of the more complex cases included in our sample. That
assessment confirmed that OPR investigated leads and allegations,
interviewed subjects and documented these interviews; that DEA employees
who were interviewed had signed the appropriate warnings and assurance

U.S. Department of Justice                                                 14
Office of the Inspector General
Evaluation and Inspections Division
forms; and that the final investigative report contained pertinent
information.

      However, we found that the discipline imposed based on these
investigations was not always reasonable.

      Reasonability of DEA Penalties. During FY 2001 and FY 2002, OPR
closed 602 employee misconduct investigations. After reviewing these
investigations, the Deciding Officials determined that 386 employees had
committed misconduct and cleared 216 employees of the allegations. In
those cases in which misconduct was substantiated, about 57 percent of the
employees received either a Letter of Caution or a Letter of Reprimand, 33
percent were suspended, and 9 percent were demoted or removed (Table 1).

                   Table 1: Final Disciplinary Actions for
         Subjects of OPR Cases Closed During FY 2001 and FY 2002
Disciplinary Action        Number of Subjects           Percent of Total Subjects
Letter of Caution                     151                           39
Letter of Reprimand                    71                           18
Suspension    a                       129                           33
Demotion                                1                  Less than 1 percent
Removal                                34                            9
Totals                               386                            100   b

 Source: DEA OPR
a Twenty-eight of the suspended subjects were involved in Title 31 cases, which involve
willful misuse of an OGV and require, by Federal regulation, a suspension of at least 30
days.
b Total does not equal 100 percent due to rounding.



       To assess whether the determinations of misconduct and penalties
imposed by DEA were reasonable, we reviewed OPR investigative case files
for the 105 subjects in our sample of 70 cases and the documentation
prepared by the Board and the Deciding Officials in support of their
determinations. Of the 105 subjects, the Board determined that 56 subjects
committed misconduct, cleared 19, and closed the cases for the remaining
30 subjects without a determination.18 We reviewed the case files for the 19

       18 Cases are administratively closed for reasons such as the resignation or

retirement of the subject, or the inability to identify a subject from the information in the
complaint. Cases may be closed administratively at any point in the disciplinary process.



U.S. Department of Justice                                                              15
Office of the Inspector General
Evaluation and Inspections Division
subjects cleared of misconduct and found no instances where the Board’s or
Deciding Official’s determination to clear the subject appeared to be
unreasonable.

       When misconduct did occur, however, we concluded that the
penalties imposed were sometimes unduly lenient. We found that for 13 of
the 56 subjects who committed misconduct, the facts of the case or the
comments made by Board members in the supporting documentation
appeared to justify a stronger penalty than was imposed by the Deciding
Official. For example:

       •   An OPR investigation into an alcohol-related OGV accident at an
           overseas post found that a DEA GS-14 group supervisor submitted
           the accident report to DEA two months late, the report provided
           the wrong date and time, omitted the presence of a passenger (his
           supervisor, who was the Acting Attaché), and omitted the fact of
           alcohol use.19 The OPR investigation indicated skepticism at the
           group supervisor’s claim that the errors in the report were
           “accidental,” because of the number and types of errors. The
           group supervisor received a Letter of Caution, while his supervisor
           (who was present in the vehicle, who also did not report the
           incident to his superior, and who approved the erroneous report by
           the employee) received a Letter of Reprimand. The Letter of
           Caution issued to the group supervisor stated:

              I noted that you reported the vehicle damage as an
              incident, which is not allowed when there is alcohol
              usage. Additionally, I note that your memorandum
              was inaccurate and did not report all the facts. This
              failure to report the situation constitutes Inattention to
              Duty and you are hereby cautioned to take greater
              care in your writing.

              OIG analysis. The penalty imposed appears too lenient.
              Despite the strong indications that a DEA group supervisor
              falsified an OGV accident report to cover-up an alcohol-related


       19 In this case, neither the group supervisor nor his supervisor reported the incident

to U.S Embassy management. The incident was disclosed when someone anonymously
provided the Ambassador with a copy of the Marine Security Guard Incident Report, which
reported that the two subjects arrived at the Embassy in the early morning hours in an
apparent intoxicated state. Although both subjects were initially charged with
Unauthorized OGV Use and Violations of the DEA’s Alcohol Policy, the Board dropped these
charges at the advice of the DEA Office of Chief Counsel.

U.S. Department of Justice                                                            16
Office of the Inspector General
Evaluation and Inspections Division
              incident, the employee received only a Letter of Caution
              informing him to take greater care in his writing. The
              employee’s supervisor received only a Letter of Reprimand
              despite having approved a report that was erroneous.

       •   An OPR investigation found that a GS-14 DEA group supervisor
           interfered with a police investigation of a police officer for disability
           fraud by alerting the subject. According to the OPR investigation,
           a search warrant was issued in the police investigation, and the
           court sealed the affidavit of the warrant. After the warrant was
           served at a local firearms training school, the DEA supervisor, who
           was working as a firearms instructor at the school, learned of the
           warrant’s existence and the nature of the investigation and notified
           the suspect officer, who was a friend. The DEA supervisor initially
           stated that he thought his actions were not prohibited because he
           believed that the search warrant pertained to an administrative,
           not a criminal matter, but subsequently admitted he made a poor
           decision. The OPR investigation also determined that the DEA
           supervisor did not have permission from the DEA for outside
           employment and that he was aware that he needed permission.
           The Board proposed a Letter of Reprimand, charging the
           supervisor with Poor Judgment and Unauthorized Employment,
           and questioning the supervisor’s “integrity as a law enforcement
           officer.” The Deciding Official sustained the charges and penalty.

              OIG analysis. We question that the supervisor received only a
              Letter of Reprimand despite the fact that he had revealed the
              existence of a sealed warrant and the nature of a police
              investigation, causing the Board to question the subject’s
              integrity. In addition, the supervisor admitted that he had
              knowingly engaged in outside employment without the required
              approval of DEA.

       •   In one case, the OPR investigated allegations from a
           telecommunications company that provided the DEA with
           telephone subscriber and call detail information. The OPR
           investigation found that two special agents had engaged in
           sexually explicit telephone conversations with the company’s
           operators and that one agent had a sexual relationship with an
           operator. The Board proposed that one of the special agents be
           given a Letter of Reprimand and the other a Letter of Caution. The
           Deciding Official sustained these penalties. For the special agent
           who received a Letter of Reprimand, the Board commented:


U.S. Department of Justice                                                    17
Office of the Inspector General
Evaluation and Inspections Division
              He took advantage of his personal relationship with
              [the operator] through his official capacity to obtain
              phone records without a subpoena. [The operator] lost
              her job because of it…His behavior cast a poor light on
              the professionalism of DEA special agents.

          The Board made the same comments pertaining to the special agent
          who received the Letter of Caution, and added:

              He had sex with [an operator]. Through her position
              with [the telecommunications company], she could be
              considered an SOI [Source of Information]. DEA policy
              prohibits relationships with SOIs.

              OIG analysis. Despite its assertions that the special agents had
              cast a bad light on DEA’s professionalism, and possibly violated
              DEA’s policy on fraternizing with SOIs, the Board recommended
              only Letters of Caution or Reprimand. Nonetheless, while the
              Board observed that the telephone operators lost their jobs over
              the incident, it proposed only minimal penalties for the DEA
              special agents. The Deciding Official agreed with these lenient
              penalties.

       We also identified several deficiencies in the DEA’s disciplinary system
that encourage decisions that are not reasonable, including a disciplinary
schedule of offenses and penalties that is overly broad and generic, 2 and a
failure by management to adjust penalties based on increasing misconduct
trends. These deficiencies, which lead to lenient penalties, are discussed in
the following sections.

       Overly Broad and Generic Schedule of Disciplinary Offenses and
Penalties Provides Inadequate Guidance. The DEA’s schedule of
disciplinary offenses and penalties includes offenses that are too generic,
with few offenses related to DEA’s mission, and provides an overly broad
range of penalties ranging from reprimand to removal for almost every
offense. As a result, the schedule gives the Board and the Deciding Officials
insufficient guidance in choosing a penalty.

      Other than the possession or use of drugs by employees, the
disciplinary schedule contained no offenses specific to the DEA’s mission.20

     20 Even this offense is not entirely DEA-specific, because drug possession or use is a

common offense on other federal agencies’ disciplinary schedules.

U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
Instead the DEA’s disciplinary schedule is comprised mainly of general
offense categories used by many federal agencies, such as unauthorized
absences, failure to honor just debts, misuse of office, and gambling. In
contrast, we reviewed the disciplinary schedules of ten other federal
agencies and found that they identify offenses specific to the agencies’
missions and priorities.21 For example:

       • The United States Marshals Service’s disciplinary schedule
           includes offenses such as prisoner escapes, failure to properly seat
           a prisoner or guard in a vehicle, and failure to use proper
           restraints when escorting a prisoner.

       •   The United States Customs Service’s disciplinary schedule
           includes offenses such as improper associations with informants,
           former informants or persons connected with criminal activities;
           discourteous or unprofessional language, gestures, or conduct
           toward the public; and unauthorized use of law enforcement
           equipment, resources, or techniques.

       •   The Internal Revenue Service’s disciplinary schedule includes
           offenses such as failure to file income taxes, misuse of enforcement
           statistics, and unauthorized disclosure of, or access to, tax return
           information.

       Besides including agency-specific offenses, other agencies identify
their priorities by subdividing offenses into different penalty categories. For
example:

       •   The Federal Aviation Administration distinguishes between
           supervisory and non-supervisory offenders in relation to sexual
           harassment, discrimination, and reprisal offenses (with harsher
           penalties for supervisors) and between a Testing Designated
           Position (TDP) and a non-TDP for drug or alcohol offenses. In
           contrast, the DEA does not distinguish between supervisors and
           non-supervisors for the same offenses.




        21 The ten other agencies were: the Internal Revenue Service, the United States

Marshals Service, the Department of Justice, U.S. Customs Service, the Federal Bureau of
Investigation, the National Aeronautics and Space Administration, the National Institutes of
Health, the Department of the Interior, the Federal Aviation Administration, and the
Department of State.

U.S. Department of Justice                                                           19
Office of the Inspector General
Evaluation and Inspections Division
       •   The United States Customs Service divides the offense of
           inappropriate use of a weapon into five categories, with the severity
           of penalties depending on intent and danger to human life. Again,
           the DEA does not divide this offense into categories.

       •   The Internal Revenue Service divides the offense of making a false
           statement into five categories, depending on the circumstances
           under which the statement is made. In contrast, the DEA groups
           all misstatements “in connection with employment, promotion,
           travel voucher, any records, investigation or other proper
           proceedings” into one offense.

       These schedules of penalties set a baseline to which the Deciding
Officials apply the pertinent Douglas factors. Depending on the results of
this application, the penalty could appropriately be lesser or greater than
the baseline. It is important that management set a baseline penalty that
reflects the agency’s expectations and acts as a deterrent to future
misconduct.

      We found that the DEA’s disciplinary schedule includes penalties that
are overly broad, in that nearly all offenses are assigned a range of penalties
from a Letter of Reprimand to removal.22 The other federal agency
disciplinary schedules we reviewed assigned penalties more reflective of the
severity of the offenses. For example:

       •   The United States Marshals Service’s offense of negligence
           resulting in the attempted or successful escape of a prisoner
           specifies a penalty between a 7-day suspension to removal for a
           first offense, with a 14-day suspension to removal for a second
           offense.

       •   The United States Customs Service’s offense of improper
           associations with informants or criminals assigns a penalty of a
           14-day suspension to removal for a first offense, with removal for
           the second offense.




       22 DOJ authorizes (but does not require) each of its components to establish its own

schedule of disciplinary offenses and penalties. According to DOJ Order 1200.1, DOJ did
not establish an agency-wide schedule of disciplinary offenses and penalties because the
components are so diverse that a single meaningful table would be a practical impossibility.



U.S. Department of Justice                                                           20
Office of the Inspector General
Evaluation and Inspections Division
       •    The Internal Revenue Service’s offense of unauthorized access to
            tax account information assigns a penalty of removal for a first
            offense.

      The DEA Does Not Adjust Penalties to Effectively Deter Misconduct.
The DEA has not changed its schedule of penalties since 1992. Further, the
DEA does not routinely attempt to control misconduct by adjusting the
baseline for disciplinary penalties to reflect increases in misconduct
offenses. This results in penalties that are insufficient to deter specific
types of misconduct.

      For example, the DEA’s typical penalty for losing a weapon is a 1-day
suspension.23 During our review, DEA’s Chief of Operations stated that he
was concerned with increased incidences of special agents losing their
weapons. Although the Chief of Operations had expressed his desire to
increase the penalty to a 3-day suspension, and the Board was accordingly
proposing that penalty, the Deciding Officials continued to reduce the
penalty for losing a weapon to a 1-day suspension to remain consistent with
past practices. The Deciding Officials told us that, absent written policy,
the Douglas factors required that the penalty be consistent with what was
imposed in the past.24

       In this instance, DEA management did not take the appropriate steps
to increase the penalty in response to an increase in the offense. To do so,
management must first notify employees of the increased penalties, apply
the increased penalty only to future misconduct, and apply the penalty
consistently. Although the Deciding Officials are correct to consider past
practices when applying penalties, management can increase the baseline
penalty for future offenses.

      The Board and the Deciding Officials Mitigate Penalties. We found
that both the Board and Deciding Officials consider the Douglas factors
when choosing penalties, which could result in excessive mitigation of the
penalties, if not balanced properly. The appropriate application of the


       23  Although this offense is not specifically included in the DEA’s Standard Schedule
of Disciplinary Offenses and Penalties, the Deciding Officials stated that the typical penalty
is a 1-day suspension. This is the baseline; the imposed penalty may be increased or
decreased based on the application of the Douglas factors.

      24 We also found that the DEA has one of the most lenient penalties among the DOJ

components for this offense. Other DOJ components typically impose a 3- to 5-day
suspension.



U.S. Department of Justice                                                              21
Office of the Inspector General
Evaluation and Inspections Division
Douglas factors requires that they be weighed against each other. The
Douglas decision states:

       Not all of these [Douglas] factors will be pertinent in every
       case, and frequently in the individual case some of the
       pertinent factors will weigh in the appellant’s favor while
       others may not or may even constitute aggravating factors.
       Selection of an appropriate penalty must thus involve a
       responsible balancing of the relevant factors in the individual
       case.

       In the DEA’s disciplinary process, the Board considers some of the
Douglas factors in determining a proposed penalty and the Deciding
Officials consider the remaining factors.25 If the deciding official does not
carefully consider the Board’s mitigation, the potential result is an overly
lenient penalty, which may no longer reasonably correspond to the offense
committed.

      For example, the typical penalty for an offense may be a 1-day
suspension. If the Board determines that the employee who committed the
offense is a long-term employee who has received excellent performance
evaluations and who has never been disciplined, the Board may mitigate the
typical suspension penalty to a proposed Letter of Reprimand. If the
Deciding Official does not properly consider the Board’s mitigation,
additional mitigating factors may result in the penalty being further reduced
to a Letter of Caution.

      A Board member and a Deciding Official expressed concerns that the
Douglas factors were not being properly considered. The Board member
stated that he believed that mitigating penalties was the responsibility of the
Deciding Officials, and expressed concern that if the Board reduced a
penalty and then the Deciding Official further mitigated it, the penalty
would be reduced too much. The Deciding Official agreed, stating that he
believes some of the proposed penalties he receives are already too low.
However, he believed that if, for example, he identified additional mitigating
circumstances, he was required to further lower the penalty. This may
result in an overly lenient penalty.

       25 The Board considers some of the Douglas factors in determining a proposed

penalty, particularly those factors pertaining to the employee’s length of service,
performance evaluations, and prior disciplinary history. Subsequent to receiving the
proposal letter, the employee can submit, to the Deciding Official, a written or oral
statement describing additional mitigating factors.



U.S. Department of Justice                                                          22
Office of the Inspector General
Evaluation and Inspections Division
       Board Members and Deciding Officials Consider Personal
Experiences or Opinions, or External Information. We found that Board
members did not limit themselves to examining only the facts determined by
the OPR’s investigation, but sometimes used personal experiences or
opinions to influence their determinations. For example, a police
department chief alleged, and the OPR investigation confirmed, that a GS-
14 DEA group supervisor had interfered with a police investigation of a
police officer for disability fraud by alerting the subject (who was a friend) of
a sealed search warrant. One Board member sympathized with the
employee, citing the employee’s rationale that he was not trying to warn his
friend of the investigation, or otherwise thwart the investigation, but was
acting out of concern for a friend. The Board member wrote: “I buy this. I
would have done the same.” The employee received a Letter of Reprimand.

      In another case, a member of the public alleged that DEA employees
committed civil rights violations during the execution of a search warrant.
The investigation found that when the search warrant was executed, the
parents were not at home. The 18-year-old son and the 17-year-old
daughter of the target were handcuffed and transported for questioning.
Neither teenager was provided with shoes or a coat, even though the
incident took place in a north central state during the winter. Regarding the
case, a Board member wrote a list of ten “considerations” to discredit the
complainant, including the fact that she was a Rastafarian, that she
admitted to frequently smoking marijuana, and that her letter was written
poorly and demonstrated that she had a “jail house lawyer” assist her with
it. Regarding the allegations that the minor female was improperly
handcuffed and brought in for questioning, the Board member wrote: “I do
not see what the big deal is. I have handcuffed, detained and arrested many
juveniles.” Three DEA agents were cleared of the civil rights violations,
although each received a Letter of Caution pertaining to the inappropriate
detainment, transportation, and questioning of the minor.

       We also found that one Deciding Official sought outside opinions
when deciding cases. During our discussions with this Deciding Official, he
stated that, prior to making a decision, he sometimes contacts the
employee’s SAC or others familiar with the employee to obtain information
about the employee. While these actions may be well intended, it is
improper for Deciding Officials to solicit or use such information in making
their determinations. According to Section 2752 of the DEA Personnel
Manual, in making a disciplinary decision the Deciding Official “should
consider only the reasons specified in the notice [of proposed disciplinary



U.S. Department of Justice                                                 23
Office of the Inspector General
Evaluation and Inspections Division
action] and the material in the [investigative] file, and shall consider any
answer of the employee and his or her representative.”

      Board Determinations Lack Supporting Rationale. To ensure that
disciplinary decisions are reasonable, the decision should be sufficiently
documented so that both internal and external entities can clearly
understand the rationale behind the decisions. Although in general the
Board’s records sufficiently supported its disciplinary proposals, 7 of the 14
cases that we reviewed lacked adequate supporting documentation to assess
the rationale of the Board’s determinations. 26

      We identified the following documentation deficiencies in the 14
disciplinary cases:

       •   Three of the 14 files contained only one Board member’s
           independent summary, although the file indicated that two Board
           members reviewed the case. In one case, the second Board
           member’s opinion was absent. In the other two cases, the second
           Board member simply read the other member’s summary and
           noted that he or she agreed.

       •   In three of four cases where the individual Board members
           disagreed, the files contained no rationale for the Chairman’s final
           decision.

       •   Two of the 14 files indicated that the Board’s proposed disciplinary
           action was made, in part, based on consultations with DEA’s Office
           of Chief Counsel. In one of these cases, the file did not contain the
           specifics of the consultation.

       Deciding Officials’ Decisions Were Not Well Documented in the
Adverse Action Files.27 Agencies are required to document the basis for
their disciplinary decisions according to 5 CFR, section 752.101, which
states, “Copies of the notice of proposed action, the answer of the employee
if written, a summary thereof if made orally, the notice of decisions and


        26 We reviewed the Board’s supporting documentation for a sub-sample of 14 cases

selected from our overall sample of 70 OPR cases. We initially questioned the penalties for
these 14 cases based on our review of the OPR investigative file.

        27 According to the Deciding Officials, they do not maintain their own files, but

instead include all the documentation they prepare related to the decision-making process
in the “adverse action files” maintained by the Human Resources Division.



U.S. Department of Justice                                                           24
Office of the Inspector General
Evaluation and Inspections Division
reasons therefor, and any order affecting the suspension, together with any
supporting material, shall be maintained by the agency.”28 The DEA’s
personnel manual further requires that, “If an oral answer is made, the
individual hearing the answer must make, or cause to be made, a summary
of that oral answer.”

      We found that the adverse action files were incomplete and that the
Deciding Officials did not sufficiently document their decision-making
rationale in those cases where the final decision deviated from the Board’s
proposed disciplinary action. As a result, we were unable to evaluate fully
the reasonableness of the Deciding Officials’ final decisions.

       Employees’ Written and Oral Statements Often Were Not Included in
the File. The adverse action files should include any written statements or
summaries of oral statements that the employee provided because they are
critical in determining the reasonability of a decision. We often found that
employee statements were missing from the adverse action files or, in the
case of oral statements, not properly summarized. Specifically, we found:

       •     Twelve employees in our sample submitted written statements;
             four (33 percent) of these statements were missing from the files.29

       •     Nine employees in our sample provided oral statements; six
             (67 percent) of the statements were not summarized. Two of the
             three statements that were summarized consisted solely of
             indecipherable notes.

       Deciding Officials Did Not Document the Reasons for Deviating From
the Board’s Proposals. In 6 of the 70 OPR cases in our sample, the Deciding
Official’s final penalty deviated from the Board’s proposed penalty. We
reviewed these six cases to determine whether the adverse action files
contained documentation supporting the basis for these deviations. We
found that none of the files adequately documented the reasons for the
deviations. Even though the Deciding Officials have a standard form on
which they record the applicability of each Douglas factor, this form was not
in the six files.



        28 Title 5 CFR 752.101 relates to penalties involving suspensions of 14 days or less.

Title 5 CFR 752.301, which relates to suspensions greater than 14 days, demotions, or
removals, contains essentially the same language.

       29   The DEA could not locate one file.

U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
       We also found that the final decision letters did not always explain the
specific circumstances that resulted in the changed penalty. In some cases,
the Deciding Official referred to the employee’s written or oral statement as
the basis for mitigation. However, five of the six decision letters did not
contain a sufficient explanation. For example, in one case the Board
proposed a 14-day suspension, but the Deciding Official’s decision letter
simply stated, “I find that the charge cited … is fully supported by the
evidence and is sustained. However, I have decided to mitigate the penalty
based, in large measure, on your written response. Therefore, it is my
decision that you are suspended for 1 calendar day…” In this instance, the
Deciding Official provided no details on what elements in the written
statement justified such extensive mitigation.

       DEA officials told us that they did not believe that it was necessary for
the decision letters to contain lengthy justifications or explanations because
the proposal letters issued by the Board are very detailed. However, without
the employee’s written or oral statements, the Douglas factor form, and an
explanation in the decision letter to the employee as to why the final
decision differed from the proposed penalty, the justification for the DEA’s
disciplinary decisions are not apparent and appear arbitrary. The Deciding
Officials told us that they are primarily concerned with documenting cases
that can be appealed to the MSPB. In our opinion, it is important to
document all cases, especially those cases in which the Deciding Officials
change the proposed penalties or dismiss the charges.

       Example Illustrates the Inability of the System to Ensure
Disciplinary Decisions are Reasonable. We discuss in detail one case in
which the Board’s proposed penalty differed considerably from the Deciding
Official’s final decision without any explanation from the Deciding Official
discussing the reasons for his decision.

       Because the investigation conducted by the OIG determined that the
incident had occurred, and the Board found that the incident occurred and
recommended a suspension, we were troubled that the Deciding Official
failed to sustain the charges. We interviewed Board members and the
Board Chairman and they continued to believe that the subject had acted
inappropriately and should have been suspended.




U.S. Department of Justice                                                26
Office of the Inspector General
Evaluation and Inspections Division
                                       Case Summary

       The OIG investigated an allegation that a DEA supervisor engaged in off-duty
misconduct by pointing a handgun at a 17-year old male juvenile. The incident
occurred after the DEA supervisor discovered that his 15-year-old stepdaughter had
snuck out of the house during the night and the DEA supervisor and his wife
suspected that the girl was with a 17-year-old boy who had previously taken her to a
high school dance. The supervisor waited in his car to observe who brought her
home. At 5:30 a.m., the stepdaughter returned with a 17-year-old boy. The DEA
supervisor blocked the juvenile’s vehicle with his own vehicle and, with his weapon
pointed at the boy, ordered the boy to get out of the car and lie prone on the grass.
The DEA supervisor took the boy’s car keys and detained him until the police
arrived. The police refused to take action against the boy because the stepdaughter
had gone out with him voluntarily, so no crime was committed. The DEA supervisor
did not inform the police that he had pointed his handgun at the boy. The boy’s
mother subsequently learned that the DEA supervisor had pointed a handgun at her
son and lodged a complaint against the DEA supervisor with the local police
department.

      The Board reviewed the facts of the case and charged the supervisor with Poor
Judgment and Conduct Unbecoming a DEA Special Agent. The Board proposed a
7-day suspension for the supervisor, stating:

       Having identified [the juvenile] as the individual who had gone out with
       your stepdaughter previously, your conduct in forcing him to lie on the
       ground for approximately 15 minutes, taking away his keys, and
       further detaining him for the police to arrive when, in fact, you had no
       reason to believe a crime had been committed, constitutes Poor
       Judgment on your part…your action in this matter were…
       inappropriate and were an embarrassment to the DEA and the
       Department of Justice…. Your conduct in minimizing your action and
       in omitting the fact that you pointed a firearm at a juvenile… could
       have called your integrity and the integrity of the agency into question.

       The supervisor provided a written response to the Board’s proposal in which
he did not deny the incident, but stated that he strongly believed that his actions
were appropriate. The Deciding Official reviewed the case file, the Board’s proposal,
and the supervisor’s written statement and took an oral statement from the
supervisor. The Deciding Official then issued a decision letter clearing the
supervisor of all charges. The Deciding Official’s final decision letter did not provide
details as to why the charges were dismissed, but merely stated:

       Based on my review of the facts and circumstances in this matter, to
       include your written response [date], and your oral response [date], I do
       not sustain either of the charges proposed. Therefore, I am issuing this
       Letter of Clearance. This case is closed.




 U.S. Department of Justice                                                        27
 Office of the Inspector General
 Evaluation and Inspections Division
       Because the Deciding Official failed to provide an explanation in the
decision letter of why he dismissed the charges, on April 15, 2003, the OIG
requested that the DEA provide a written explanation from the Deciding
Official of the reasons for his decision. On May 8, 2003, the DEA provided a
written statement from the Deciding Official in which he explained that he
believed the facts of the case demonstrated that the subject did not know for
sure that his stepdaughter was with the 17-year-old, and therefore he acted
to ensure his stepdaughter’s safety. Furthermore, the Deciding Official
stated that he believed there was no evidence to support a finding that the
supervisor intentionally omitted a fact or was otherwise less than candid to
the police. He added that the supervisor’s written and oral response
supported his interpretation.

       We reviewed the documentation maintained by the Deciding Official
for this case. The Deciding Official told us that because he thought his
decision would be controversial, he prepared a Douglas factor checklist. In
this case, however, preparing a Douglas factor checklist was unnecessary
because it should only be prepared to determine a penalty if the charge is
sustained, not if the subject is cleared of the charges. The checklist stated,
as a mitigating factor, that the DEA supervisor “Approached situation that
was perceived as potentially threatening in a professional law enforcement
style.” In response to the Douglas factor pertaining to the effect of the
offense on the subject’s ability to perform the job, the Deciding Official
wrote, “None based on oral representation re: ongoing relations w/state &
local officials.”30

      The Deciding Official defended his decision by stating that he “had
almost been killed once by a 17-year-old”, and that he could therefore
understand the circumstances. He also stated that the incident could not
have been that serious because he knew that the stepdaughter and the
boyfriend continued to date after the incident.

      This case is especially problematic because the conclusion drawn by
the Deciding Official is so divergent from the unanimous conclusion of six
Board members and the OIG investigators that a serious offense was
committed. Moreover, the Deciding Official did not document any reason for
his decision. And, because the employee is a GS-15 supervisory agent, the
decision raises a concern that he was given special consideration.



       30 We found that the case file contained no documentation of the supervisor’s oral

response, contrary to DEA policy.



U.S. Department of Justice                                                           28
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

      Recommendation 1: The DEA should provide better guidance to the
Board and Deciding Officials on the factors that may be considered in
making disciplinary determinations by: a) updating the Schedule of
Disciplinary Offenses and Penalties; b) updating written procedures to guide
the operations of the Board and Deciding Officials; and c) instructing the
Deciding Officials to limit their disciplinary considerations to the
information contained in official DEA files and information provided by the
employee or their authorized representative.

      Recommendation 2: The DEA should document the Douglas factors
considered in making its disciplinary decisions.

      Recommendation 3: The DEA should require that documentation
maintained by the Board and Deciding Officials regarding each disciplinary
case include: a) the opinions of each Board member assigned to review a
case and the rationale for the Chairman’s proposal in those instances when
the individual Board members disagree; b) any advice from outside sources,
such as the Office of Chief Counsel; and c) all oral and written statements
made by employees to Deciding Officials.

       Recommendation 4: The DEA should require that when the final
disciplinary decisions differ from the proposed charges and penalties, the
final decision letter contain a detailed explanation of the reasons for the
difference.

        Recommendation 5: The DEA should require that the DEA
Inspection Division periodically review a sample of closed disciplinary case
files to assess whether the basis for the disciplinary decisions was
adequately documented.




U.S. Department of Justice                                              29
Office of the Inspector General
Evaluation and Inspections Division
Timeliness of Processing Disciplinary Cases

       During FY 2001 and FY 2002, the DEA experienced
       excessive delays in processing disciplinary cases. We found
       that DEA management failed to monitor the timeliness of
       the disciplinary system or take timely corrective action. In
       addition, some DEA employees criticized the disciplinary
       system for its lack of timeliness, citing the potential
       negative effect on their careers.

      To evaluate the DEA’s timeliness in processing disciplinary cases, we
tracked the time it took for each of the three entities to process the 70 OPR
cases in our sample.31 When calculating the entity’s processing time, we
did not count delays that we identified through file documentation as
beyond the entity’s control.32

       To define timeliness, we reviewed DEA performance standards or,
when these were not available, determined reasonable timeframes through
interviews with DEA officials. Only OPR had established written
performance standards addressing timeliness. According to Chapter 8310
of DEA’s Planning and Inspection Manual, OPR should complete its
investigations within 180 days of receiving the allegation.33 During
discussions, the Board Chairman and Deciding Officials told us that their
informal goal was to process cases within 60 days.



        31 We determined the processing dates as follows: For processing by OPR, we

tracked the time from the date the allegation was received by OPR through the date the
completed investigative case file was sent to the Board. For processing by the Board, we
tracked the time from the date the completed investigative case file was sent to the Board
through the date the proposal letter was sent to the employee and the Deciding Officials.
For processing by the Deciding Officials, we tracked the time from the date the copy of the
proposal letter was sent to the Deciding Officials to the date the final decision letter was
sent to the employee.

       32 For example, the United States Attorneys’ Office (USAO) might have requested
that OPR delay an investigation pending the resolution of legal matters pertaining to either
the subject or a witness. Delays also might have occurred when OPR became aware that
either the subject or witness was involved in an on-going investigation conducted by local
or state authorities, or other federal agencies. Subject and witness availability, or delays in
receiving evidence, also resulted in delays. In addition, the Board or the Deciding Officials
might have requested that OPR perform additional investigative work, or that the Office of
Chief Counsel provide a legal opinion.

       33 The Manual also requires that field personnel functioning as delegated OPR

inspectors should complete their investigations within 90 days.

U.S. Department of Justice                                                              30
Office of the Inspector General
Evaluation and Inspections Division
      The mean processing time of the cases in our sample was 334 days,
with a median of 327 days. The mean processing time for each entity is
shown in Chart 1.

            Chart 1: Processing Time for DEA Disciplinary Cases



                           Mean = 28 days
                                                                   Mean = 190 days




                     Mean = 116 days


                     OPR      Board of Professional Conduct   Deciding Officials

           Source: OIG Sample Review of OPR Cases

       OPR Delays Were Infrequent. We found that OPR exceeded its goal
of 180 days to complete investigations in 28 of the 70 cases (40 percent)
that we reviewed. However, in only 6 of these 28 cases (9 percent of the
total cases) did it appear that the delays were within OPR’s control.34 In
these six cases, OPR took from 6.8 months to 15.5 months to conduct the
investigation.

      One of OPR’s Associate Deputy Chief Inspectors reviewed the
investigative case files for the six cases. She was unable to determine a
reason for the delays in three cases, and attributed the delays in the
remaining cases to either re-interviewing a subject due to a faulty tape
recorder (4-month delay) or DEA personnel taking leave during the holiday
period.




        34 We considered delays to be excessive only in those cases where our review of the

investigative case file showed either gaps of more than two months between interviews or
other investigative actions, or one interview or less per month. Some of the cases that took
in excess of 180 days to complete were complex and involved interviewing a large number of
witnesses. As long as the investigation appeared to progress in a timely manner, we
considered these to be completed timely.



U.S. Department of Justice                                                           31
Office of the Inspector General
Evaluation and Inspections Division
      Board Delays Were Frequent, But Have Diminished. During
FY 2001 and FY 2002, the Board experienced significant processing delays.
Of the 70 cases in our sample, 54 had been sent to the Board.35 In 46 of
those 54 cases (85 percent), the Board took longer than 60 days to issue a
proposal letter. The mean and median processing times for the 54 cases
were 116 days. The Board’s processing times for the 54 cases are shown in
Chart 2.

              Chart 2: Board Processing Time for Sampled Cases
                                14                                             13
                                12                                  11
                                                          10
                                10
              Number of Cases




                                8
                                        6                                                 6      6
                                6

                                4
                                                 2
                                2

                                0
                                             0


                                                      0




                                                                           0


                                                                                      0
                                                               20
                                   30




                                                                                            80
                                                                         15


                                                                                    18
                                          -6


                                                   -9
                                 1-




                                                            -1




                                                                                          >1
                                        31


                                                 61




                                                                      1-


                                                                                 1-
                                                          91


                                                                    12


                                                                               15




                                                     Processing time (in days)


    Source: OIG Sample Review of OPR Cases

      The Board Chairman acknowledged that large backlogs occurred from
September 1999 through January 2002. According to the Board Chairman,
during this 29-month period, the Board had a backlog of 60 to 110 cases to
review, and received an additional 20 new cases each month. As a result,
cases sometimes remained at the Board for 90 to 120 days before the Board
Chairman assigned them to a Board member for review. According to the
Board Chairman, several factors caused the backlogs:

       •   The Board was not fully staffed. During this 29-month period, the
           Board consisted of the Chairman and two or three Board members.
           Productivity was further reduced due to frequent turnover of Board
           members and the resultant learning curve.



       35 Fifteen cases in our sample were administratively closed by OPR due to the

resignation or retirement of the subject, or the inability of OPR to substantiate the charges
or identify a subject. One of the case files included in our sample could not be located.

U.S. Department of Justice                                                                           32
Office of the Inspector General
Evaluation and Inspections Division
       •   The Board Chairman reviewed each case and signed every proposal
           letter, which created a bottleneck.

       •   There was only one employee relations specialist to prepare all of
           the proposal letters, which resulted in a bottleneck.

       According to the Board Chairman, in late 2002 the Board was able to
reduce its backlog, and is able to process accident and loss or property
cases within 30 days, and most OPR cases in 30 to 60 days.36 He cited
several factors that have resulted in more timely processing of cases. First,
after recognizing the large number of cases that the Board reviewed, the
Chairman requested and received authorization for more Board member
positions. As a result, three Board members were added in mid-2002 and a
fourth was added in mid-2003, bringing the total number of Board members
to six. In late 2000, the DEA temporarily allowed the Chairman to delegate
signatory authority to another Board member for those cases in which the
penalty is less than a 15-day suspension. And, in late 2001, the DEA
assigned a second employee relations specialist to the Board.

      In addition to the delays noted by the Chairman, we identified another
source of delay – the requirement that the Board review the field reports
pertaining to routine OGV accidents and losses of government property.
OPR does not investigate these cases because they do not involve integrity
or criminal issues. Instead, field personnel investigate these cases and send
them to the Board for the final decision. We question whether these cases
should be sent to the Board for the following reasons:

       •   During FY 2001 and FY 2002, the Board processed 1,134 routine
           OGV accident reports and 564 loss or theft of government property
           reports. Although the Board claims that reviewing these reports is
           not time-intensive, the volume alone is significant enough to affect
           the timely processing of the more important misconduct cases,
           which involve integrity or criminal issues.

       •   It is inconsistent that these types of matters, which are
           administrative in nature, should be handled differently from other
           administrative matters (e.g., travel card delinquencies) normally
           handled by SACs or office managers.



       36 We were unable to verify his claim because the Board’s database does not track

timeliness. In determining timeliness for our sample of closed cases from FY 2001 and
FY 2002, we used the dates from memorandums included in OPR investigative case files.

U.S. Department of Justice                                                          33
Office of the Inspector General
Evaluation and Inspections Division
       •   According to the Board, these infractions result only in either
           Letters of Clearance or Letters of Caution and therefore they think
           that SACs or office heads should issue them.

      The DEA Chief of Operations, the Board, and Human Resource
Division officials were unable to identify any reasons the Board needed to
review these cases, other than that the Board had always done so.

      Deciding Official Delays Occurred Infrequently. We found that,
during FY 2001 and FY 2002, the Deciding Officials generally issued
decision letters timely. The mean processing time was 25 days and the
median was 15 days.37 The Deciding Officials issued a decision within 60
days for 48 of the 54 cases (88 percent). The processing times for the 54
cases are shown in Chart 3.

     Chart 3: Deciding Officials’ Processing Times for Sampled Cases
                                                 38
                                     40
                                     35
                   Number of Cases




                                     30
                                     25
                                     20                       10
                                     15
                                     10                                        3         3
                                      5
                                      0
                                                                                    0
                                            30




                                                          0




                                                                         0




                                                                                    >9
                                                        -6




                                                                       -9
                                          1-




                                                      31




                                                                     61




                                                        Processing time (in days)

       Source: OIG Sample Review of OPR Cases

      DEA Management Does Not Monitor Timeliness. Because the DEA
did not track cases as they progressed through the disciplinary system to
determine when and where delays occurred, excessive backlogs continued
for more than two years before the DEA took corrective action.

        Currently, OPR, the Board, and the Deciding Officials maintain
separate databases. While OPR can use its database to track the timeliness
of its investigations, neither the Board nor the Deciding Officials can use its
database to track the timeliness of a specific case. Their databases are

        37 The mean processing time of 25 days differs from the mean of 28 days noted in

the chart on page 31 because we excluded time delays that were not within the Deciding
Officials’ control. For example, if the Deciding Officials asked for advice from the Office of
Chief Counsel, we did not include that time in the Deciding Officials’ processing time.



U.S. Department of Justice                                                                   34
Office of the Inspector General
Evaluation and Inspections Division
primarily repositories of prior proposals and decisions and are used as a
reference to ensure consistency of disciplinary actions. The DEA is
currently developing a consolidated disciplinary database for OPR, the
Board, the Deciding Officials, the Human Resources Division, and the Office
of Chief Counsel. The DEA’s efforts to consolidate its multiple disciplinary
databases began in mid-November 2002. The DEA estimates that the
implementation process will take at least two years. This new system
should enable DEA senior management to better monitor timeliness.

        Delays Negatively Impact DEA and its Employees. We found that
the lengthiness of disciplinary investigations negatively affects DEA
employee morale. During our telephone survey, we spoke to several DEA
employees who either had been or were being investigated. They
complained of the stress of being placed on limited duty for a year or more.
This lack of timeliness was mentioned by 40 percent of the DEA employees
we contacted during our telephone survey and was the predominant
complaint regarding the disciplinary system. These employees tended to
blame OPR for the lack of timeliness. However, as described earlier, we
found that while OPR investigations take the greatest portion of time in the
disciplinary process, OPR generally conducts its investigations in a timely
manner. During the period that we reviewed, only the Board incurred
significant avoidable delays.

      In addition to affecting morale, the lengthy disciplinary process is a
productivity issue for the agency. The work activities and career
opportunities of employees investigated by OPR may be severely restricted
while the process is ongoing. Subjects of OPR investigations may be placed
on limited duty, during which time they are not allowed to work overtime,
operate an OGV, carry a firearm, or carry DEA credentials or badges.
According to the DEA’s Agents Manual, special agents on limited duty are
prohibited from “participating in surveillance, arrests, searches, and…
developing new enforcement matters.” In addition, employee’s promotions
and transfers are delayed while they are the subjects of an OPR
investigation.

      During the two-year period that we reviewed, the DEA investigated
688 of its employees.38 That represents a considerable portion of the
agency’s approximately 9,300-person workforce. During the disciplinary
process, the agency may be denied the full services of these employees.

       38 The 818 cases opened during FY 2001 and FY 2002 involved a total of 931

subjects, including 688 DEA employees, 90 non-DEA task force officers, 11 contractors,
and 142 unknown subjects. Some of the DEA employees may have been investigated more
than once.

U.S. Department of Justice                                                      35
Office of the Inspector General
Evaluation and Inspections Division
Therefore, more timely processing of disciplinary cases will not only
minimize the negative impact on employees, but also more quickly return
the services of those employees who are cleared of misconduct charges, and
more promptly remove employees who are found guilty of egregious or
criminal conduct.

RECOMMENDATIONS

      Recommendation 6: The DEA should require that the Board and the
Deciding Officials establish performance measures for timeliness, and
record the amount of time it takes to process each case.

      Recommendation 7: The DEA should delegate to the appropriate
special agents in charge and office heads responsibility for reviewing
instances of routine OGV accident and losses of government property cases
that do not involve misconduct issues.




U.S. Department of Justice                                           36
Office of the Inspector General
Evaluation and Inspections Division
Consistency of the Disciplinary System

       In a survey of 50 DEA employees, 70 percent stated that
       they believed the DEA disciplinary system treated all
       employees equitably.     However, 30 percent of DEA
       employees we surveyed believed either that special agents
       receive preferential treatment or that higher-graded
       employees receive preferential treatment in the DEA’s
       disciplinary system. The data that we were able to review
       was mixed and inconclusive as to whether a dual standard
       of discipline exists.

       An effective disciplinary system treats employees consistently. The
likelihood and severity of discipline should not depend on factors such as an
employee’s position, grade, race, ethnicity, and gender. To examine
indications of position and grade level disparity, we analyzed OPR data
related to DEA disciplinary cases, reviewed individual cases during our
sample review, and conducted a telephonic opinion survey of a random
sample of 50 DEA employees. We also reviewed several external studies
that examined racial, ethnic, and gender issues related to DEA discipline.

      Some DEA Employees Perceive Favoritism in DEA’s Disciplinary
System. In our telephone survey of 50 DEA employees, we found that
30 percent of the respondents believed that either special agents or higher-
graded employees receive more favorable treatment than non-agents and
lower-graded employees. Regarding disparate treatment according to
occupational position, 4 of 50 (8 percent) of the employees we surveyed
stated that they believed special agents are treated more leniently than
those in other positions. Regarding disparate treatment by grade level,
11 of 50 (22 percent) of the employees we surveyed stated that they believed
that managers were less likely to be charged with misconduct and, when
charged, are more likely to receive lenient penalties. None of the
respondents provided specific examples of the favorable treatment that they
believed existed. Comments from DEA employees included:

       •   Those involved in the disciplinary system are managers and
           managers tend to take care of their own and cover up for each
           other;

       •   Managers are generally given the benefit of the doubt;

       •   People at the top tend to know each other;



U.S. Department of Justice                                             37
Office of the Inspector General
Evaluation and Inspections Division
       •   Because OPR inspectors eventually rotate back to the field, they
           are less inclined to be harsh with managers who may become the
           inspectors’ future supervisors; and

       •   People at the top found guilty of misconduct tend to be transferred,
           while people at the bottom tend to be removed or otherwise receive
           harsher discipline.

      The remaining 35 respondents to our telephone survey (70 percent)
stated that they did not perceive any disparity in the DEA’s disciplinary
system related to grade level or position. In fact, six of the employees cited
recent cases in which a SAC or an Assistant SAC was disciplined as
evidence of the lack of favoritism in the system.

       While an evaluation of gross numbers of disciplinary actions across
groups cannot confirm consistent treatment, we examined the available data
related to disciplinary actions by employee occupational category and by
grade level to determine if any clear trends were evident. As described
below, the data that we were able to review was mixed and inconclusive as
to whether a dual standard of discipline exists. A complete evaluation of
allegations of disciplinary disparity would require the comparison of similar
offenses and a methodology to account for inherent differences in the
number and types of offenses that different groups may commit. Such a
detailed analysis was beyond the scope of this review.

       Data Regarding DEA Special Agents. We compared the number of
investigations conducted in FY 2001 and FY 2002, and how many of those
investigations resulted in discipline, for special agents, chemists, diversion
investigators, intelligence analysts, and support/other staff. 39 We found
that, as compared to their representation in the DEA workforce, DEA special
agents were more likely to be investigated for alleged misconduct. While
special agents constitute 49 percent of the DEA workforce, they are the
subjects of 73 percent of DEA’s misconduct investigations (Table 2).




        39 Support/other staff includes employees in job categories such as personnel

specialists, program analysts, and budget, legal, and clerical staff. It does not include
special agents, diversion investigators, intelligence analysts, or chemists.

U.S. Department of Justice                                                              38
Office of the Inspector General
Evaluation and Inspections Division
       Table 2: Subjects Investigated by the DEA OPR (by Position)
             All Cases Opened During FY 2001 and FY 2002

                                Number of          Percent of
                                                                       Percent of the
                                 Subjects           Subjects
         Position                                                     DEA’s Workforce
                               Investigated       Investigated
 Special Agents                   502               73.0                    49.3
 Diversion Investigators           31                4.5                     5.6
 Intelligence Analysts             25                3.6                     7.6
 Chemists                          13                1.9                     3.3
 Support/Other                    117               17.0                    34.3
   Totals                         688               100                     100
Source: DEA OPR


       While special agents were more likely to be investigated, we found that
a slightly lower percentage of those investigations resulted in discipline (as
opposed to clearance) than did investigations of employees in other
occupational categories. For closed investigations, 62 percent of the
investigations of special agents resulted in discipline.40 In contrast, from 65
percent to 82 percent of the investigations of employees in other
occupations resulted in discipline (Table 3).

                  Table 3: Subjects Disciplined by the DEA
            All Closed Cases (other than Administrative Closure)
                            FY 2001 and FY 2002
                                       Percent of Subjects          Percent of Subjects
            Position
                                           Disciplined                   Cleared
  Special Agents                              62                            38
  Diversion Investigators                     65                            35
  Intelligence Analysts                       68                            32
  Chemists                                    70                            30
  Support/Other                               82                            18
Source: DEA OPR


      In reviewing the closed cases that resulted in discipline, we found that
despite a slightly higher clearance rate, special agents were still more likely
to be disciplined than other occupations, given their proportions in the DEA
workforce. Specifically, special agents made up 49 percent of the DEA
workforce, but were 67 percent of the subjects disciplined (Table 4).

       40 These did not include those cases that were administratively closed, which are

closed due to insufficient evidence or where the subject resigned or retired prior to the
rendering of the disciplinary decision.

U.S. Department of Justice                                                            39
Office of the Inspector General
Evaluation and Inspections Division
           Table 4: Subjects Disciplined by the DEA (by position)
                  All Closed Cases Resulting in Discipline
                           FY 2001 and FY 2002
                                  Number of      Percent of
                                                              Percent of the
   Position                        Subjects      Subjects
                                                              DEA Workforce
                                  Disciplined   Disciplined
   Special Agents                     256          67.0           49.3
   Diversion Investigators             20           5.2            5.6
   Intelligence Analysts              13            3.4            3.6
   Chemists                            7            1.8            3.3
   Support/Other                       86          22.5           34.3
   Totals                            382            100           100
     Source: DEA OPR

       The greater percentage of special agents investigated for alleged
misconduct may be attributable to a number of factors. For example, the
nature of the work of special agents requires them to carry weapons,
participate in raids, have access to seized drugs and cash, and have more
contact with the public. Further, many of their activities require judgments
– for example, the amount of force necessary when arresting a suspect –
that may be subject to review. Consequently, they are exposed to more
situations that could lead to misconduct investigations than are non-agents.
Therefore, despite the higher investigation, clearance, and discipline rates
for special agents, the above data do not necessarily mean that special
agents are treated more harshly than other employees.

      In addition to the above data, we noted that in our sample of 70
cases, of the 13 investigation subjects whom we found to have received
penalties that appeared too lenient, 12 were special agents. However, the
small number of cases does not support a systemic finding of favorable
treatment for special agents.

      Data Regarding Discipline of Higher Graded Employees. We
compared the investigations and penalties imposed in FY 2001 and FY 2002
for employees at each grade level. We also identified the distribution of
employees at each grade level in the DEA population. In reviewing cases
opened in FY 2001 and FY 2002, we found that, given their relative
proportions in the DEA workforce, higher-graded employees (i.e., SES,
GS-15, and GS-14 employees) were slightly more likely to be investigated
than lower-graded employees. For example, SES employees comprised 0.8
percent of the DEA workforce, but made up 2.5 percent of subjects
investigated. In contrast, employees at the GS-8 level and below comprised

U.S. Department of Justice                                               40
Office of the Inspector General
Evaluation and Inspections Division
16.3 percent of the workforce, but were 8.5 percent of the subjects
investigated. Possible reasons for this variance are that higher-graded
employees are more likely to be involved in making decisions or taking
actions that can lead to charges of misconduct. Employees in the middle
grades (GS-9 to GS-13) were investigated in about the same proportion that
they appear in the DEA population (Table 5).

          Table 5: Subjects Investigated by OPR (by Grade Level)
             All Cases Opened During FY 2001 and FY 2002
                           Number of           Percent of
                                                                  Percent of the
   Grade Level              Subjects            Subjects
                                                                  DEA Workforce
                          Investigated        Investigated
   SES                         17                 2.5                    0.8
   GS-15                       28                  4.1                   3.7
   GS-14                      136                 19.8                  14.0
   GS-13                      239                 34.8                  34.0
   GS-12                      141                 20.6                  19.3
   GS-11                       29                  4.2                   5.4
   GS-10                        2                  0.3                   0.2
   GS-9                        36                  5.2                   6.3
   GS-8 and below              58                 8.5                   16.3
   Totals                    686 a                100                   100
   Source: DEA OPR
   a Total does not equal 688 as in Table 2 because several subjects had unknown grade

   levels.

       When we examined the closed cases that resulted in discipline, the
variance between higher-graded employees and lower-graded employees
decreased, and the distribution of disciplined employees at each grade level
reflected the distribution of employees by grade level in the DEA population.
In particular, the percentage of disciplined SES employees (0.8 percent)
exactly matched the percentage of SES employees in the DEA population
(also 0.8 percent). Disciplined employees at the GS-08 level and below (13.1
percent) more closely matched the 16.3 percent proportion these employees
represent in the DEA population (Table 6).




U.S. Department of Justice                                                        41
Office of the Inspector General
Evaluation and Inspections Division
           Table 6: Subjects Disciplined by DEA (by Grade Level)
                  All Closed Cases Resulting in Discipline
                           FY 2001 and FY 2002
                           Number of      Percent of
                                                         Percent of the
                            Subjects      Subjects
     Grade Level                                         DEA Workforce
                           Disciplined   Disciplined
     SES                        3            0.8               0.8
     GS-15                      12           3.1               3.7
     GS-14                      72          18.8              14.0
     GS-13                     115          30.1              34.0
     GS-12                      69          18.1              19.3
     GS-11                      30           7.9               5.4
     GS-10                       2           0.5               0.2
     GS-9                       29           7.6               6.3
     GS-8 and below            50           13.1              16.3
     Totals                   382            100              100
     Source: DEA OPR

       We also examined how higher-graded employees were disciplined as
compared to lower-graded employees. We found that employees at higher
grade levels received a higher percent of clearances while employees at lower
grade levels received a higher percentage of removals. Specifically, we found
that two-thirds of SES employees received a Letter of Clearance, while less
than one-third of employees at the GS-9 level or below received a Letter of
Clearance. Further, no SES or GS-15 employees were removed, while 22
percent of employees at the GS-8 level or below were removed. The
distribution of penalties by grade level is shown in Table 7.




U.S. Department of Justice                                             42
Office of the Inspector General
Evaluation and Inspections Division
                 Table 7: Percentage of Penalties by Grade Level
                     OPR Closed Cases (FY 2001 and 2002)

Number of Cases           9      21    107      193   104     45      2      40         59
Disciplinary Action      SES   GS-15 GS-14 GS-13 GS-12 GS-11 GS-10 GS-9            GS-8 - lower
Letter of Clearance       67    43    33    40    34    33     0    28                 15
Letter of Caution         11     14     34      24    28      13      0      33         22
Letter of Reprimand       11     14     11      10    13      20      0       5         19
Suspension                11     29     20      22    23      29     50      20         22
Grade Reduction            0      0      0       0     0       2      0       0          0
Removal                    0      0      3       4     3       2     50      15         22
TOTAL     a              100    100    100      100   100    100    100     100        100
Source: DEA OPR
a   Totals may not equal 100 due to rounding.

      We examined the variance between the discipline imposed for SES
employees and the discipline imposed for lower-graded employees and
concluded that it did not appear to be due to a systemic disparity in
treatment. For the SES employees, we reviewed 9 cases in which the OPR
concluded its investigation in FY 2001 and FY 2002.41 We concluded that
the facts established in the investigations fully supported the
determinations in these cases, and that the SES employees were disciplined
appropriately. We also examined the penalties imposed on higher-graded
employees in our sample of 70 discipline cases. The one SES employee
included in our sample received a 33-day suspension for Unauthorized Use
of an OGV and Misuse of Office. Of the remaining DEA management
personnel, 50 percent of the GS-15 employees and more than a quarter of
the GS-14 employees received penalties (Table 8).




       41 The OPR investigated 16 SES employees for misconduct. The remaining seven

SES employees’ cases were administratively closed. The DEA administratively closes cases
when either the employee resigns or retires, or when a preliminary investigation determines
that there is insufficient evidence to either identify a subject or determine that misconduct
has occurred. Because the OPR database does not provide more specific information, we
were unable to determine the reasons for the administrative closures of the seven SES
cases.

U.S. Department of Justice                                                            43
Office of the Inspector General
Evaluation and Inspections Division
     Table 8: Discipline Imposed in Sample Review, By Grade Level

                        Number of          Number of             Percentage of
   Grade Level          Subjects in       Subjects Who           Subjects Who
                          Sample            Received           Received Discipline
                                           Discipline
   SES                        1                 1                       100
   GS-15                       4                2                        50
   GS-14                      18                5                        28
   GS-13                      25                3                        12
   GS-12                      16                6                        38
   GS-11                       8                4                        50
   GS-9                        9                2                        22
   GS-8 and below             5                 3                        60
   Unknown                    19                0                         0
   Totals                    105               26                       N/A
 Source: OIG Sample Review of OPR Cases
 Note: Unknown subjects include those cases where a subject could not be identified or
 cases involving non-DEA employees, such as contractors or other law enforcement
 officers assigned to a task force.


      In our sample review of 70 OPR cases, employees at all grade levels
received discipline, including 3 employees at GS-8 or below. We concluded
that the penalties imposed in these sample cases were appropriate.
Because we found that the discipline imposed on SES employees and on
lower-graded employees was appropriate in all the cases that we reviewed,
we concluded that the variance in the discipline imposed was not based on
a systemic disparity.

       In discussions, DEA officials offered one explanation for the removal
rates of lower-graded employees. They explained that it may be because
lower-graded employees are more likely to be in a probationary status.
During probation, new employees can be removed expeditiously should they
exhibit behavior, such as committing misconduct, which demonstrates
unsuitability for permanent career status. Employees in a probationary
status have no right to appeal to the MSPB. This could be a contributing
factor to the variance we observed.

      We also noted that some of the higher-graded employees in our
sample resigned or retired during the disciplinary process. Of the 105
subjects in our sample, four cases were administratively closed because the
employee resigned, and five cases were administratively closed because the
employee retired. Of the retirees, two were GS-13s, two were GS-14s, and


U.S. Department of Justice                                                        44
Office of the Inspector General
Evaluation and Inspections Division
one was a GS-15. We were unable to determine whether these employees
retired to avoid disciplinary action – one retired during the investigation, two
retired before the Board proposed disciplinary action, and two retired after
the proposal letter was issued but before the penalty was imposed.42

       As with our review of the data regarding special agents, because a
detailed analysis that would compare penalties assigned in each case was
not feasible, and because the data that was available was mixed, we cannot
conclusively determine whether higher-graded employees are treated more
leniently than lower-graded employees.

      External Reviews Found No Disparity By Race, Ethnicity, and
Gender. Our review examined disciplinary action taken by position and
grade level for all DEA employees. Three external reviews examined the
influence of other factors, such as race, ethnicity, and gender, on the
treatment of the DEA special agent workforce. These reviews concluded
that there was no disparate treatment by the DEA. For example:

       •    An April 1987 contractor study examined disparity related to race,
            gender, DEA office size, and geographic region.43 Although the
            study found some statistical differences in certain categories, the
            study concluded that the DEA’s disciplinary system was fair and
            that the expected disciplinary proposals and decisions were the
            same for all races who were charged with similar offenses or
            offenses of the same level of severity.44

       •    An August 2001 contractor study focused on the disparity in the
            discipline administered to Caucasian versus African-American



       42The Board proposed that one subject receive a Letter of Reprimand and the other
a 3-day suspension.

       43A Study of the Drug Enforcement Administration’s Current Conduct and Discipline
System, Advanced Research Resources Organization, Arthur L. Korotkin, F. Mark
Schemmer, and Cheryl D. Bruff.

        44 The authors of the report attributed the statistical differences to other factors.

For example, the study found that a higher proportion of GS-12 employees and a lower
proportion of GS-13 employees were disciplined. The study surmised that this occurred
because GS-12 employees are more independent and given more latitude, thereby providing
them with more opportunity for discretionary behavior. On the other hand, the report
concluded that because GS-13 employees represent the first level of supervision, this may
result in a more rigid adherence to the rules.



U.S. Department of Justice                                                            45
Office of the Inspector General
Evaluation and Inspections Division
            special agents.45 This study, which analyzed disciplinary actions
            imposed from 1994 to 2000, found no differences between
            Caucasian and African-American special agents in terms of the
            severity of the punishment issued.

       •     A July 2003 study conducted by the General Accounting Office
            (GAO) included a review of racial, ethnic, and gender differences in
            the DEA’s disciplining of special agents.46 This study found that
            the proportion of African-American, Hispanic, and female special
            agents disciplined for misconduct was substantially higher than
            their representation in the DEA special agent workforce. The study
            did not offer reasons for this, but cited the 1987 and 2001 studies
            noted previously in concluding that the DEA’s disciplinary process
            was fair and nondiscriminatory, despite the higher proportion of
            African-American, Hispanic, and female special agents
            disciplined. 47




       45 Drug Enforcement Administration Discipline System Study, SHL Landy Jacobs:
Litigation Support Group.

        Equal Employment Opportunity: Hiring, Promotion, and Discipline Processes at
       46

DEA, GAO-03-413.

        47 The GAO study also found an overall perception among DEA minority special

agents that minorities were disproportionately investigated for misconduct and received
harsher disciplinary penalties. To address this, the GAO study recommended that the DEA
make its disciplinary statistics available to the DEA workforce. In its response to the GAO
report, the DEA agreed to provide data to the general DEA workforce at least annually on
the types of misconduct sustained.



U.S. Department of Justice                                                          46
Office of the Inspector General
Evaluation and Inspections Division
DEA Management of the Disciplinary System

       The DEA does not adequately monitor the overall
       disciplinary system to ensure that it functions properly.
       While the three-tiered system comprised of OPR, the Board,
       and the Deciding Officials provides for oversight over OPR
       and the Board, DEA management does not systemically
       review the Deciding Officials’ actions to ensure that
       decisions are consistent and reasonable. The DEA also does
       not ensure that disciplinary actions are properly
       documented in employees’ official personnel files.

       The DEA’s three-tiered disciplinary system provides some oversight of
OPR and Board activities to ensure that they are independent. OPR
conducts fact-based investigations that do not draw any conclusions. To
ensure objectivity, senior OPR inspectors closely monitor the investigations;
the final investigative product is reviewed and approved by both the senior
inspector and one of OPR’s Associate Deputy Chief Inspectors. The Board
and the Deciding Officials also provide a quality check: if they believe that
the OPR investigation is incomplete they can request further investigation.

       There also is oversight over the Board. The Board does not make any
final decisions, but only proposes disciplinary action. The Deciding Officials
make the final penalty determinations and may or may not accept the
Board’s proposed charges and penalties.

       However, there is no oversight over the Deciding Officials. If the
Deciding Official assigned to a case does not agree with the Board’s
proposals, the Deciding Official can – without explanation – dismiss the
charge or decrease the penalty. In addition, DEA management does not
routinely review cases in which the Deciding Officials’ final decisions varied
significantly from the charges and penalties proposed by the Board to
determine the factors responsible for the variance and make systemic
corrections for future disciplinary decisions. This lack of management
oversight allows potential abuses in the system in that a Deciding Official
could inappropriately dismiss charges or mitigate penalties. For example, in
the case cited on page 27 in which a DEA supervisor pointed a gun at a
17-year old boy, five of the Board members familiar with the case and the
Board Chairman told us that they believed that the supervisor had acted
inappropriately and should have been suspended for his misconduct.
Based on their review of the case, none could identify a plausible reason
why the Deciding Official did not sustain the charges.



U.S. Department of Justice                                              47
Office of the Inspector General
Evaluation and Inspections Division
       Because the Board and the Deciding Officials rely on the same
investigative reports in making penalty determinations, instances of
significant variances in the interpretation of these reports by the Board, the
Deciding Officials, or both should alert management that there is a systemic
problem, or a problem with the Board or the Deciding Official relating to a
particular case. And, although management should not interfere with an
on-going investigation or attempt to influence a Deciding Official to change a
particular decision, it is appropriate for management to require the Board
and the Deciding Officials to justify their determinations.

      Each Board member we interviewed stated that significant variances
in Deciding Officials’ decisions occur infrequently, approximately two or
three cases a year. We were unable to specifically identify how often a
Deciding Official’s decision varied from the Board’s proposed penalty
because neither the Board nor the Deciding Officials track this information.
In our sample review of 70 OPR cases, the Deciding Officials varied from the
proposed penalty in six cases. In only one of the six cases did we conclude
that the variance was significant. In that case, a proposed 14-day
suspension was reduced to 1 day, but based on the information in the file
we were unable to determine the Deciding Official’s reason for mitigating the
penalty.

       Deciding Officials Allege Management Influence and Retaliation.
While conducting our review, we received an allegation that DEA
management had attempted to influence a Deciding Official.48 The DEA has
strict policies against this, as stated in a May 28, 1996, memorandum from
the Chief Inspector to all DEA employees:

       To maintain the integrity of the disciplinary process, no
       person is authorized to contact the Deciding Officials or the
       Board of Professional Conduct during the pendency of a
       disciplinary or performance based action, other than the
       employee concerned and his/her designated representative.

       During our review, the Deciding Officials told us that a DEA manager
from the Office of Inspection approached them in July 2002 regarding a
specific case in which the Deciding Official had not yet made a final
decision. The manager expressed displeasure at the leniency of the penalty
proposed by the Board and suggested that the penalty should be harsher.
(We interviewed the manager who allegedly approached the Deciding

       48 The Deciding Officials also told us that in the past a previous DEA Administrator

had interfered in the decision-making process by telling them what penalty he wanted
imposed, but that this did not occur under subsequent Administrators.

U.S. Department of Justice                                                           48
Office of the Inspector General
Evaluation and Inspections Division
Officials and he denied that the incident occurred.) In the final decision
made in November 2002, the Deciding Official further mitigated the
proposed penalty based on the application of the Douglas factors. The
Deciding Official told us that in December 2002 DEA management informed
him that he had been a Deciding Official too long (five years) and that he
should start looking for another position within the DEA. He viewed this
action as retaliatory.

       Five months after the Deciding Official was told to look for another
position, the Acting DEA Administrator retired. The week following his
retirement, the Human Resources Director transferred the Deciding Official
to another position, acting on the request of the former Acting DEA
Administrator who had retired. The timing of the DEA management actions,
at best, gives the appearance of reprisal against the Deciding Official,
although the conflicting statements prevent us from conclusively
determining whether the incident occurred.

      Discipline Was Not Always Documented in Employees’ Official
Personnel Files. It is important that the official personnel files contain the
appropriate documentation to ensure that the imposed disciplinary actions
were taken and to serve as permanent records of employees’ disciplinary
histories. These files are used in a variety of personnel actions, such as
promotions, security clearances, and transfers. According to the DEA
personnel manual:

       All reprimands and adverse actions must be reflected in the
       affected employee’s official personnel folder. Official reprimands
       will be retained in the official personnel folder for a period not to
       exceed two years, at which time they will be removed and
       destroyed…[A reprimand] may be removed and destroyed
       sooner if a grievance over a reprimand is sustained, or if it is
       determined upon request from the employee after one year that
       the reprimand should be removed.            In the latter case, a
       reprimand may be removed only by the official who issued the
       reprimand or someone organizationally superior to that official.

        Documentation of adverse actions, other than a Letter of Reprimand
(i.e., suspensions, grade reductions, and removals), becomes a permanent
part of the employee’s personnel file unless the penalties are overturned on
appeal or grievance.

      In our review of 70 OPR cases, we identified 23 employees who
received formal disciplinary decisions that should have been documented in


U.S. Department of Justice                                                     49
Office of the Inspector General
Evaluation and Inspections Division
their official personnel files. Among those 23 employees, 12 received written
reprimands, 7 received suspensions from 1 to 33 days, 1 received a grade
reduction from GS-11 to GS-9, and 3 were removed. We reviewed the
personnel files of the above individuals and specifically looked for either the
letter of reprimand or, in the case of adverse actions, the SF-50 (Notification
of Personnel Action). The result of our review is summarized in Table 9.

      Table 9: Personnel File Documentation of Discipline Imposed

 Penalties                       Support Found For:       Support Missing For:
 12 Letters of Reprimand         6 Letters of Reprimand   6 Letters of Reprimand
 7 Suspensions                   5 Suspensions            2 Suspensions
 1 Grade Reduction               1 Grade Reduction        None Missing
 3 Removals                      3 Removals               None Missing
 23 Actions                      15 Actions               8 Actions
Source: OIG Review of Official Personnel Files

      Of the six missing Letters of Reprimand, three were issued more than
a year before we conducted our review. Therefore, it was possible that they
had been removed at the request of the employee. When asked why there
was no documentation regarding the remaining three Letters of Reprimand
and two suspensions, DEA officials were unable to provide an explanation.
During our review, we also found that one of the files contained a Letter of
Reprimand more than two years old that should have been removed.

      The DEA Informs its Employees of the Requirement for Reporting
Misconduct and Penalizes Those Who Fail to Report Misconduct. The
DEA’s standards of conduct require its employees to promptly report to their
supervisor, or to OPR, any activity or situation the employee believes to be
improper, illegal, or otherwise in violation of any of the DEA’s standards of
conduct. The DEA informs its employees of this requirement in several
ways. OPR inspectors routinely make presentations at the DEA Training
Academy in which they describe common misconduct and explain the
consequences. In addition, the DEA requires all of its employees to certify
annually that they have read and understand the standards of conduct.
This precludes those employees who are charged with misconduct from
claiming that they were unaware of the standards.

      Our survey of 50 DEA employees indicated that the DEA’s actions to
educate its employees were successful. Each of the 50 employees we
contacted were aware of the standards of conduct and of the DEA’s
requirement that they report misconduct. Even employees who stated that
they sometimes did not report misconduct acknowledged that they were
aware of the requirement and the potential consequences of failing to do so.

U.S. Department of Justice                                                  50
Office of the Inspector General
Evaluation and Inspections Division
      We also found that the DEA investigated and penalized employees
who failed to report misconduct. If an OPR investigation determined that an
employee (who was not the subject of the original allegation) knew about
misconduct but failed to report it, OPR would charge that employee with
Failure to Report OPR Matters. We found that of the total 1,392 charges in
cases opened during FY 2001 and FY 2002, Failure to Report OPR Matters
was the fourth most frequent charge, as shown in Table 10.49

             Table 10: Top Five Offense Codes Charged by OPR
                Cases Opened During FY 2001 and FY 2002

                                                          Number of       Percent of
  Offense                                                  Offenses         Total
                                                                           Offenses
  Poor Judgment                                               143             10
  Failure to Follow Written Instructions                      120              9
  Conduct Unbecoming an Agent                                 77               6
  Failure to Report OPR Matters                               64               5
  Loss or Theft of a Defendant’s Property or Funds            58               4
  All other charges                                           930             67
  Totals a                                                   1,392            100
 Source: DEA OPR
 a Totals may not equal 100 percent due to rounding.




      Our sample review of OPR cases included eight employees who were
charged with Failure to Report OPR Matters. For example, while
investigating a complaint that a SAC had misused his OGV by transporting
his son in it, OPR learned that a DEA supervisor also was in the vehicle and
did not report the misconduct. OPR then charged the supervisor with
Failure to Report OPR Matters.

       Although the DEA encourages employees to report all misconduct,
11 of the 50 DEA employees we surveyed stated that they did not believe
that DEA employees reported all misconduct. Three stated that they had
personally observed misconduct and not reported it. These individuals
made a distinction between “minor” misconduct (such as using an OGV to
run errands) which they would not report, and “major” misconduct (such as

       49 In FY 2001 and FY 2002, OPR used a total of 79 different offense codes to

categorize charges. Some OPR cases include multiple subjects or single subjects who have
committed multiple offenses.

U.S. Department of Justice                                                          51
Office of the Inspector General
Evaluation and Inspections Division
criminal activity) which they would report. In addition, they believed that
employees who report misconduct become known and are mistrusted and
ostracized. The survey respondents also stated that misconduct is not
reported because the interpretation of misconduct varies, and that everyone
commits minor misconduct at some point in their career.

      Our survey also found that when employees did report misconduct,
the DEA acted on the report. Seven of the surveyed employees stated that
they had reported misconduct. Six of the seven stated that the DEA
investigated their allegations. The remaining employee stated that her
second-line supervisor did not agree that misconduct had occurred, and did
not forward the allegation to OPR, an outcome that was acceptable to the
employee. In addition, 48 of the surveyed employees believed that their
managers properly reported misconduct to OPR.

      The DEA is reporting allegations of misconduct to the OIG, as
required. On July 11, 2001, the Attorney General expanded the
jurisdiction of the OIG and permitted it to investigate allegations of
misconduct against DEA employees. Therefore, the OIG has the option to
investigate any allegation and an OIG investigator reviews all new
allegations to make this decision. In addition, OPR has developed a
standard form that indicates the date that the OIG reviewed the allegation,
whether the OIG accepted or declined the case, and the name of the OIG
investigator who made the determination. This form is incorporated into
every OPR investigative case file. We determined that 9 of the 70 OPR cases
in our sample occurred after July 11, 2001, and that the DEA reported
these allegations to the OIG as required.

RECOMMENDATIONS

       Recommendation 8: The DEA should designate a single office to
monitor the three-tiered system and prepare reports describing disciplinary
activities, including, at a minimum: a) the processing timeframes for OPR,
the Board, and the Deciding Officials; b) statistics on offenses committed
and disciplinary actions taken; c) trend analyses showing increases or
decreases in specific offenses committed; and d) a description of disciplinary
decisions where the final charges or penalties varied significantly from the
Board proposal.




U.S. Department of Justice                                              52
Office of the Inspector General
Evaluation and Inspections Division
                                      CONCLUSIONS


      While the DEA disciplinary system appears appropriately structured
and the OPR investigations of employee misconduct are thorough and
generally timely, deficiencies in certain areas hinder the effectiveness of the
system.

        We found that the penalties imposed by the DEA for confirmed
misconduct were sometimes overly lenient. In our sample, we found 9 cases
involving 13 subjects in which the facts of the case or comments made by
Board members in the supporting documentation appeared to justify a
stiffer penalty than was ultimately imposed by the Deciding Official. We
identified several factors that appear to encourage the lenient penalties.
The DEA’s Schedule of Disciplinary Offenses and Penalties does not
communicate DEA management’s priorities. The defined offenses are
generic and not DEA-specific, and the penalties – usually ranging from a
Letter of Reprimand to Removal for each offense – are too broad to serve as
effective guidance for the Board and Deciding Officials. We also found that
the DEA continues to impose the same penalty even when increases in
specific misconduct indicate that more stringent punishment is needed to
provide an effective deterrent. Another factor that contributed to lenient
penalties is that both the Board and the Deciding Officials apply mitigating
factors in making their determinations. The result of this dual mitigation is
that penalties can be reduced below the level that is appropriate for the
offense.

       In a sample of 70 closed disciplinary case files, we also found that
Board members did not always document their independent reviews of a
case. Written and oral statements provided by employees in response to the
disciplinary proposal were often missing from the files or, in the case of oral
statements, were not properly documented. Final decision letters sent to
the employee generally did not sufficiently explain the reasons for increasing
or decreasing proposed penalties, or dismissing charges. Because of the
deficient documentation, we could not always determine whether the
individual disciplinary decisions were reasonable.

      In addition, we found excessive delays occurred during FY 2001 and
FY 2002, primarily with the Board. The delays continued for almost 29
months because DEA management did not take action. At the time of our
review, only OPR had established standards against which to measure
timeliness, and the DEA did not have a centralized database to track cases
as they progress through the entire disciplinary system. Nearly half of the


U.S. Department of Justice
Office of the Inspector General                                           53
Evaluation and Inspections Division
DEA employees that we surveyed complained that discipline cases took too
long to resolve, resulting in career disruptions.

      Although some DEA employees perceive that special agents and
higher-graded employees were disciplined inconsistently from non-agents
and lower graded employees, we found insufficient evidence to conclude that
a double standard of discipline exists.

      We also found that the DEA’s disciplinary system lacks any
mechanism to review final decisions when there is a significant discrepancy
between the findings of the investigation, the Board’s proposed charges and
penalties, and the Deciding Official’s final determination. Although the
decisions of both OPR and the Board undergo review, there is no
accountability for the Deciding Officials.

       We make eight recommendations to help the DEA ensure that its
disciplinary decisions are reasonable, fair, free of inappropriate external
influences, well documented, and timely. These recommendations include
better guidance for the Board and Deciding Officials in making their
disciplinary determinations, the establishment of standards to improve the
timely processing of disciplinary cases, and more effective DEA management
of the overall disciplinary process.




U.S. Department of Justice
Office of the Inspector General                                       54
Evaluation and Inspections Division
    APPENDIX I: DEMOGRAPHICS OF EMPLOYEES IN TELEPHONE SURVEY



By Position:                                      Number of Employees   Percent of Total
HQ Management                                              1                   2%
Resident Agent in Charge                                   4                   8%
Special Agent                                             24                  48%
Diversion Investigator                                     2                   4%
Intelligence Personnel                                     6                  12%
Laboratory Personnel                                      3                   6%
Technical/Clerical Personnel                              10                  20%
TOTAL                                                     50                 100%

By Grade Level:                                   Number of Employees   Percent of Total
GS-15                                                      2                   4%
GS-14                                                     11                  22%
GS-13                                                     16                  32%
GS-12                                                     10                  20%
GS-11                                                      3                   6%
GS-8                                                       2                   4%
GS-7                                                       6                  12%
TOTAL                                                     50                 100%

By Length of Service with DEA:                    Number of Employees   Percent of Total
Less than 5 years                                         13                  26%
5 to 9 years                                              11                  22%
10 to 14 years                                            7                   14%
15 to 19 years                                            8                   16%
20 to 24 years                                            8                   16%
25 to 29 years                                            0                    0%
30 or more years                                           3                   6%
TOTAL                                                     50                 100%

By Type of Exposure to OPR:            a          Number of Employees   Percent of Total
As a subject                                              10                  20%
As a witness                                              18                  36%
As a delegated inspector                                   4                   8%
Knows of others investigated                              38                  76%
Unspecified role                                           3                   6%
No exposure                                               8                   16%
TOTAL                                                     81                  N/A
Source: OIG Survey of DEA Employees
a   Some respondents listed more than one type.



U.S. Department of Justice
Office of the Inspector General                                                     55
Evaluation and Inspections Division
APPENDIX II: THE DRUG ENFORCEMENT ADMINISTRATION’S RESPONSE




U.S. Department of Justice
Office of the Inspector General                          56
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       57
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       58
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       59
Evaluation and Inspections Division
    APPENDIX III: THE OIG’S ANALYSIS OF THE DRUG ENFORCEMENT
                    ADMINISTRATION’S RESPONSE



      On October 17, 2003, the Office of the Inspector General (OIG) sent
a copy of the draft report to the Administrator for the Drug Enforcement
Administration (DEA) with a request for written comments. The
Administrator responded to us in a memorandum dated
December 17, 2003. The DEA fully concurred with six of the eight
recommendations and is assessing the feasibility of implementing the
remaining two recommendations. The DEA also provided comments on
one of the report sections. Our analysis of the DEA’s response follows.

DEA RESPONSE

       The DEA concurred with the OIG that the DEA’s disciplinary
system as a whole was functioning well but that improvements were
needed. The DEA’s specific comments on the report pertained to the
section describing the Board members’ and Deciding Officials’ use of
their personal experiences or opinions, or external information, in
making disciplinary determinations. Specifically, -the DEA: 1) contended
that two of the factors cited in the report as being used by a Board
member to discredit a complainant were legitimate, and not
inappropriate as the report concluded, and 2) stated that the report’s
characterization of these two factors as “outside information” was
incorrect because the information was contained in the investigative file.
Both of these issues are discussed below.

Legitimacy of Factors Used by a Board Member to Assess the
Credibility of a Complainant

       The disputed section of the report pertains to a case in which a
member of the public alleged that DEA employees committed civil rights
violations during the execution of a search warrant. The report
concluded that some of the comments made by a Board member in
evaluating the credibility of the complainant appeared to be
inappropriately subjective. The DEA agreed that some of the comments
made by a DEA official cited in the report, such as the fact that the
complainant was a Rastafarian and that her letter was poorly written, did
appear to be improper or irrelevant. However, the DEA stated that other
comments, such as the complainant admitting to frequently smoking
marijuana and having her complaint prepared by a “jailhouse lawyer,”
were legitimate factors to be considered in assessing her credibility.


U.S. Department of Justice
Office of the Inspector General                                        60
Evaluation and Inspections Division
      In this case, the DEA’s rationale for citing frequent drug use and
use of a “jailhouse lawyer” as discrediting factors is not clear. If the
complainant had been present and under the influence of marijuana
while the search warrant was being executed, the DEA could argue that
she was not credible because her perceptions were distorted. This,
however, was not the case as only the complainant’s children were
present when the search warrant was being executed. It also is not clear
how using a “jailhouse lawyer” to prepare a complaint would necessarily
make the complaint less valid.

Inappropriate Use of the Term “Outside Information”

      DEA is correct in stating that the factors cited by the Board
member in this case are not “outside information.” This section of the
report encompasses both the use of personal experiences or opinions by
the Board, and the use of external information by the Deciding Officials,
and was incorrectly titled in the draft report. We have revised the title to
appropriately reflect the contents of the section.


RECOMMENDATIONS

Recommendation 1: The DEA should provide better guidance to the
Board and Deciding Officials on the factors that may be considered in
making disciplinary determinations by: a) updating the Schedule of
Disciplinary Offenses and Penalties; b) updating written procedures to
guide the operations of the Board and Deciding Officials; and
c) instructing the Deciding Officials to limit their disciplinary
considerations to the information contained in official DEA files and
information provided by employees or their authorized representatives.

       Status: Resolved – Open.

      Summary of DEA’s Response: The DEA concurred with the
recommendation and agreed to: a) convene a working group to
determine revisions to the Schedule of Disciplinary Offenses and
Penalties; b) review and update the Board’s and the Deciding Officials’
handbooks; and c) reinforce its instructions to the Deciding Officials
regarding the parameters of information that they may consider. The
projected completion dates are January 2004 for reinforcing its
instructions, June 2004 for revising the Schedule of Disciplinary



U.S. Department of Justice
Office of the Inspector General                                           61
Evaluation and Inspections Division
Offenses and Penalties, and September 2004 for updating the
handbooks.

       OIG’s Analysis: We consider the recommendation resolved, but
will keep it open until the DEA provides to us: a) a copy of the revised
Schedule of Disciplinary Offenses and Penalties; b) documentation that
the Board’s and the Deciding Officials’ handbooks have been revised; and
c) a copy of the instructions issued to the Deciding Officials regarding the
parameters of information that they may consider in making disciplinary
determinations.

Recommendation 2: The DEA should document the Douglas factors
considered in making its disciplinary decisions.

       Status: Resolved – Open.

      Summary of DEA’s Response: The DEA concurred with the
recommendation and agreed to reinforce its policy to document
information on the Douglas factors considered in making disciplinary
decisions. The projected completion date is March 2004.

       OIG’s Analysis: We consider the recommendation resolved, but
will keep it open until the DEA provides to us documentation of the
reinforcement of its policy.

Recommendation 3: The DEA should require that documentation
maintained by the Board and Deciding Officials regarding each
disciplinary case include: a) the opinions of each Board member
assigned to review a case and the rationale for the Chairman’s proposal
in those instances when the individual Board members disagree; b) any
advice from outside sources, such as the Office of Chief Counsel; and
c) all oral and written statements made by employees to Deciding
Officials.

       Status: Unresolved – Open

      Summary of DEA’s Response: The DEA stated that it will take
under advisement and review the merits of this recommendation and any
potential alternatives. The projected completion date is January 2004.

     OIG’s Analysis: Because the DEA has not yet addressed the
recommendation, we consider it unresolved. We will keep the



U.S. Department of Justice
Office of the Inspector General                                          62
Evaluation and Inspections Division
recommendation open until the DEA provides to us an appropriate
response as to how it will implement the recommendation.

Recommendation 4: The DEA should require that when the final
disciplinary decisions differ from the proposed charges and penalties, the
final decision letter contains a detailed explanation of the reasons for the
difference.

       Status: Resolved – Open

      Summary of DEA’s Response: The DEA concurred with the
recommendation and agreed to issue guidance to the Deciding Officials
to ensure that when final decisions differ from the proposed charges and
penalties, the decision letter contains a detailed explanation of the
reasons for the differences. The projected completion date is January
2004.

       OIG’s Analysis: We consider the recommendation resolved, but
will keep it open until the DEA provides to us a copy of the guidance
issued to the Deciding Officials.

Recommendation 5: The DEA should require that the DEA Inspection
Division periodically review a sample of closed disciplinary case files to
assess whether the basis for the disciplinary decisions was adequately
documented.

       Status: Resolved – Open

       Summary of DEA’s Response: The DEA concurred with the
recommendation and stated that it will require the DEA’s Human
Resources Division to conduct annual inspections of closed disciplinary
case files and to report the inspection results to the Deputy
Administrator. According to the DEA, the first inspection is scheduled to
be completed by March 2004.

      OIG’s Analysis: Although we recommended that the DEA
Inspection Division conduct the inspections, the DEA’s decision to have
its Human Resources Division conduct the inspections is an acceptable
alternative. We therefore consider the recommendation resolved, but will
keep it open until the DEA provides to us the results of the first
inspection.




U.S. Department of Justice
Office of the Inspector General                                          63
Evaluation and Inspections Division
Recommendation 6: The DEA should require that the Board and the
Deciding Officials establish performance measures for timeliness, and
record the amount of time it takes to process each case.

       Status: Resolved – Open

      Summary of DEA’s Response: The DEA concurred with the
recommendation and agreed to establish performance measures for
timeliness. The DEA also stated that it intends to develop or acquire a
database to track all disciplinary cases, and agreed in the interim to
implement an Access database system for tracking purposes. The
projected completion date for establishing performance measures is May
2004 and August 2004 for developing requirements analyses for the
database.

       OIG’s Analysis: We consider the recommendation resolved, but
will keep it open until the DEA provides to us documentation that
performance measures have been established and a tracking system has
been implemented.

Recommendation 7: The DEA should delegate to the appropriate
special agents in charge and office heads responsibility for reviewing
instances of routine OGV accident and losses of government property
cases that do not involve misconduct issues.

       Status: Unresolved – Open

      Summary of DEA’s Response: The DEA stated that it will
conduct a review of the impact of this change on the special agents in
charge and submit a proposal to the Deputy Administrator to address
the realignment of this responsibility. The projected completion date is
June 2004.

       OIG’s Analysis: Because the DEA has not yet made a
determination to delegate this responsibility, we consider the
recommendation unresolved. We will keep the recommendation open
until the DEA provides to us an appropriate response as to how it will
implement the recommendation.

Recommendation 8: The DEA should designate a single office to
monitor the three-tiered system and prepare reports describing
disciplinary activities, including, at a minimum: a) the processing time
frames for OPR, the Board, and the Deciding Officials; b) statistics on


U.S. Department of Justice
Office of the Inspector General                                            64
Evaluation and Inspections Division
offenses committed and disciplinary actions taken; c) trend analyses
showing increases or decreases in specific offenses committed; and d) a
description of disciplinary decisions where the final charges or penalties
varied significantly from the Board proposal.

       Status: Resolved – Open

      Summary of DEA’s Response: The DEA concurred with the
recommendation and stated that the Deputy Administrator’s office would
be designated as the single office having overall responsibility for
monitoring the disciplinary system. The DEA further stated that the
Deputy Administrator’s office will monitor the disciplinary system using
reports provided by the HR Division and the Office of Professional
Responsibility. The projected completion date is March 2004.

       OIG’s Analysis: We consider the recommendation resolved, but
will keep it open until the DEA provides to us documentation officially
designating this authority to the Deputy Administrator’s office, and
documentation showing the specific types of information and reports to
be used by the Deputy Administrator’s office for monitoring purposes.




U.S. Department of Justice
Office of the Inspector General                                          65
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       66
Evaluation and Inspections Division
